                                                                     UNITED STATES DEPARTMENT OF COMMERCE
                                                                     The lnepector Generel
                                                                     Washington, D.C, 20230




February 26. 2009

The Honorable Olympia J. Snowe
United SllItes Senate
Washington. DC 20510-1903

Dear Senator Snowe:

This responds to your lencr of August 28. 2008. requesting that we investigate a series of issues
n:garding the work and seientifie methods of the National Marine I'isheries Service's (NMFS')
Northeast Fisheries Science Cemer. We in\'estigated your speeifie concerns about ··the quality of
the science used to determine catch limits for New Englund commercial fisheries" and n:lated
allegations from the fishing industry and non-NOAA scientists. as "ell as with NMFS'
implementation of National Standard 2 of the Magnuson-Stevens Fishery Conservation and
Management Act.

                                                           National Standard 2 requires that conservation and
     Figure I. Nonhe•• t U.S. Shelf                        management measures in fishery management plans
     [oosy .. em
                                                           be hased on the best scientific infonnation available.
       .       .               .       .       .	
                                                n.
                                                           Your sllllfhad shared with us a number of allegations

 .b"	                                                      and concerns from the fishing industry and sewral




                             ~'£51­
                                                           independent researchers that raised questioll5 about
                                                           "hether the Northeast Fisheries Science Center had
                            t."-             _             used the best available science in the recent

               6F~
 •                                                    •    Groundfish Assessment Rcvie" Meeting (GARM
                                                           Ill). which sought to evaluate fundamental scientific
 ,
             )­                      ~'-,
                                                           information for all 19 groundfish stocks. We focused


     ~)7
                                                           our review on the two fisheries that generated the
 ,                                  ~  .­             •	
                                                           most coneerns--northeast ground fish (sJ1l"'ilically.
                                                           Atlantic cod. haddock. pollock. and yello"1ail
                                                           flounder) and Atlantic sea scallops. Figure I shows

 'h
  P'/
   . .
              _.­.             .       .
                                                      •
                                                           the area covered by the Northeast Science Center.

                                                           We also addressed concerns that NMFS has denied

         "                      ~

                                            -- .


 500,.,.,: Enm""""",tll "'......,...,,1 ROllU10l0l;
                                                           the fishing industry access to underlying scientific
                                                           data. We cxamined one particular data access issue
                                                           that arose from a request under the Freedom of
                                                           Infonnation Act. including the transparency of
 ImP'lOt ~.".". Initial R<i"lot"') FI..,ibili')            NMFS' procedures for re>ponding to data requests.
 AnoJ),.i. for North<... \tulu<p«i<s H ~
 Morag<m<n' Pi.... N"ional \1..;"" Fi>heri..
                                                           the timeliness of its response. and the appropriateness
 S<-r\ ic<. GIouo<sI<r. M..-hu...... J"'LJar) t6.          of the fees it charged to process the request.
 ~
Although we found merit with several of the specific allegations, overall we found the Science
Center meets the “best available science” requirements of National Standard 2. We also found
systemic issues with NMFS’ management of FOIA that are beyond the scope of this review. As
detailed below, we identified several issues with respect to the relationship between NOAA in
the Northeast region and the groundfish industry and NOAA’s progress in using ecosystem
approaches to fisheries management that NOAA should promptly address. We will be sharing
our observations with NOAA. Our findings with respect to the specific allegations we were
asked to review are detailed in attachment A.

Summary of Findings

The history of contention between the groundfish industry and NOAA in the Northeast Region,
where industry is suspicious of the science and sees NOAA as biased toward conservation goals,
provides the backdrop for the decisions made by NOAA that impact the groundfish industry. We
found the relationship between the northeast groundfish industry and NMFS is characterized by a
lack of confidence and trust and by poor communication, which colors how individuals view
NOAA’s management of fisheries. For example, NOAA’s poor handling of a 2008 FOIA request
contributes to its reputation in the Northeast Region as an agency that is unconcerned with
transparency.

While NOAA has made limited progress in the Northeast Region improving the transparency of
its fishery management process since 2004, when these issues were most recently addressed by
an external review, 1 more work needs to be done to rebuild the relationships with industry,
particularly the groundfish industry. Additionally, several issues arose during the course of our
review that reinforce the need for NOAA to more aggressively pursue ecosystem approaches to
fisheries management, which will require additional data and new models.

As a result of our work, we will make recommendations to NOAA related to enhancing the
participation of the northeast groundfish industry in the fisheries management process, clarifying
NOAA’s policy on the multispecies exemption, more aggressively pursuing ecosystem
approaches to fisheries management, and ensuring NOAA meets its statutory FOIA
requirements.

Methodology

During the course of the review, we met with or spoke to government officials and fisheries
scientists from the Massachusetts, New Hampshire, and Maine departments of fish and wildlife,
industry associations, fishermen, environmental groups, researchers involved in assessments and
peer reviews, and researchers not involved in the process, including international scientists.

We attended a U.S. Senate field hearing before the Subcommittee on Oceans, Atmosphere,
Fisheries, and Coast Guard, Committee on Commerce, Science, and Transportation, in Portland,
Maine, on October 14, 2008. We conducted interviews at the Northeast Fisheries Science Center

1
 National Research Council. 2004. Improving the Use of the "Best Scientific Information Available" Standard in Fisheries
Management.




                                                              2

in Woods Hole, Massachusetts, on November 16, 2008, and from November 17-20, 2008, we
attended the New England Fishery Management Council meeting in Danvers, Massachusetts,
and met with staff at the Northeast Regional Office in Gloucester, Massachusetts. We traveled to
Maine again in January 2009 to conduct additional interviews. Our scope and methodology are
more fully described in attachment E.

Background

The Magnuson-Stevens Act requires that                              NMFS’ Overfished and Overfishing Definitions
fishery management councils make use of the
                                                                    Overfished: “A stock or stock complex is
“best scientific information available” to                          considered overfished when its population size falls
manage stocks via fishery management                                below the minimum stock size threshold. A
plans. 2 Generally, if science indicates that a                     rebuilding plan is required for stocks that are
stock is overfished or subject to overfishing,                      deemed overfished.”
the act requires regulations, such as catch
                                                                    Overfishing: “According to the National Standard
limits, gear restrictions, and/or area closures,                    Guidelines, ‘overfishing occurs whenever a stock or
to allow the stock to recover. NMFS uses its                        stock complex is subjected to a rate or level of
own scientists and contracts with outside                           fishing mortality that jeopardizes the capacity of a
experts to conduct stock assessments. These                         stock or stock complex to produce maximum
assessments form the scientific basis used to                       sustainable yield on a continuing basis.’
                                                                    Overfishing is occurring if the maximum fishing
(1) determine biologically sustainable harvests                     mortality threshold is exceeded for 1 year or more.”
by fishery management councils, (2) guide the
monitoring and rebuilding of overfished and                         A stock can be subject to overfishing but not
threatened stocks, and (3) set maximum, or                          overfished (i.e., fish are being removed at a high
total allowable, catch in each fishery.                             rate that will eventually lead to the stock’s
                                                                    depletion, but the current stock population is not
                                                                    below the minimum threshold). A stock can also be
Since 1985 the Science Center has used a two-                       overfished, but not subject to overfishing (i.e., the
part system to ensure adequate peer reviews of                      stock population is at a low level, but fishing rates
its stock assessments: a Stock Assessment                           are at a level such that the stock is expected to
Workshop, which is where the stock                                  rebuild.
assessment is made, followed by an
                                                                    See attachment C for a graph of how the GARM III
independent, external peer review conducted                         Assessment illustrated these definitions.
by the Stock Assessment Review Committee
to ensure compliance with the “best available                       Source:
science” requirement. 3                                             http://www.nmfs.noaa.gov/fishwatch/glossary.htm


NMFS’ use of best available science both nationally and at the Northeast Science Center has
been the subject of seven separate reviews conducted over the past decade, by the National
Research Council of the National Academy of Sciences, the Government Accountability Office,
and the National Academy of Public Administration. (Attachment B contains a brief description
of each study.)


2
 Magnuson-Stevens Fishery Conservation and Management Act, Section 301. 

3
 National Research Council. 2004. Improving the Use of the "Best Scientific Information Available" Standard in Fisheries 

Management, p.13.





                                                               3

The growing number of fishery management actions challenged in federal courts demonstrates
that the scientific information that informs the development of fishery management plans is the
subject of substantial scrutiny from all parties, including environmental groups, recreational and
commercial fishers, and other members of the fishing industry. According to a 2004 National
Research Council report, “to avoid being subject to sometimes severe reductions in allowable
catch, the [fishing] industry has often challenged the scientific information underlying the
finding that the stock is overfished.” 4 Conservation-minded plaintiffs also challenge the science,
alleging it is inadequate. Our review found that alleged violations of National Standard 2 have
been among the most frequently stated causes of action in complaints filed under the Magnuson-
Stevens Act. In a report requested by Congress and NMFS, the National Academy of Public
Administration found in 2002 that “courts are deferential to NMFS’ scientific expertise; when
experts disagree, the court will not second-guess the agency’s judgment as long as it is
reasonable.” 5 The National Academy of Public Administration found that challenges to National
Standard 2 failed in 80 percent of the cases it reviewed from 1977-2001.

                                                                    F-'gu~ 2. S'lec:t u.s. COIllIl'lfil:i..l L..;andlnlfS in tM
                                                                    North... ~t
                                                                                            Quanllty                    Value
                                                                                          2006        2007        2006       2007
                                                                                          Millions PoundS         Million Dollars




                                                                  --Massachusetts
                                                                    New 8emofll



                                                                    MalOe
                                                                                           'M'
                                                                                           117.4



                                                                                            M2
                                                                                                      149.5
                                                                                                       ~.




                                                                                                       ~.
                                                                                                                  ""
                                                                                                                  m

                                                                                                                  27,8
                                                                                                                             ~o
                                                                                                                             ~,




                                                                                                                              24.1




                                                                                                                   .....
                                                                  "-                       ""          '"          'u         m



                                                                   -Rhode'......
                                                                    PcIirI.u:xn
                                                                                            ••
                                                                                            ~o
                                                                                                       ..,
                                                                                                       ]7.6

                                                                    SiIure o.ata!rom NMFS; phi:*> 1rom NEFSC
                                                                                                                  ,           ,,.
                                                                                                                              ~,




                               Commercial landings at Gloucester Fishing Pier, circa 1950. Gloucester is
                               one of the most lucrative commercial ports in the Northeast.


In 2007, the value of commercial landings of all species in New England was $875 million
dollars and 573 million pounds. In 2006, the value of commercial landings of all species in New
England was $953 million dollars and 700 million pounds. Figure 2 lists the quantity and value
of commercial landings at important ports in New England in 2006 and 2007. For example, New
Bedford, Massachusetts, had the highest value of commercial landings in the U.S. in 2006 and
2007, and the ninth and seventh highest landings in pounds in 2006 and 2007, respectively.




4
  National Research Council of the National Academy of Science, Improving the Use of the "Best Scientific Information 

Available" Standard in Fisheries Management, 2004, p.13. One outcome of this report was NMFS’ restructuring of the lines of

supervision between regional directors. To avoid undue influence, or the appearance thereof, following this report NMFS’ 

national science and technology office director supervises the regional science center directors instead of the regional office

directors. 

5
  See National Academy of Public Administration, 2002. Courts, Congress, and Constituencies: Managing Fisheries by Default, 

2002, p. 21. 





                                                               4

Historical Context of Northeast Multispecies/Groundfish Allegation

The Northeast Multispecies fishery management plan was implemented in 1986 to reduce fishing
mortality of heavily fished groundfish stocks. This plan specifies the management measures for
12 species in federal waters off the New England and Mid-Atlantic coasts, comprising a total of
19 individual stocks. While these 12 species exhibit unique body types, behaviors and habitat
preferences, all live near the bottom and feed on bottom-dwelling organisms and, consequently,
are often caught together. Figure 3 shows landings and revenues in this fishery from 1989 to
2007.


                Figure 3. landings and Revenues in the New England Groundfish
                Fishery, with Selected Fishery Management Plan Amendments and
                                     Adjustments (1989 - 2007)




                                       .
                                       ~~,.;
                                                     , ""
                                                             ~"
                                       0,
                                                     "•
                                                     N
                                                                              -!
                                                                              ,"           N
                                                                                           •
         ~ 150,lXXJ
                            I~         !•
                                       "   0
                                                             ~i               "
                                                                                           !
                                                                                           •
         ., .
         ~
         ~ 100 lXXJ    •!    • '{~
                             ~"
                                                N


                                                "    ~
                                                             «1               .!           "'<

         .
         !
         !
             5O,lXXJ


                  "
                       ",
                       0


                       <
                              0


                             );


                   ~#~r~#~~###~~~##~~#
                                           "
                                           0    0


                                                );



                                                          ,-
                                                                •                       \:


                 I-Revenues (Thousands 01 Dollars) -landings (Thous:r<lsof Pounds) I

In 1994, Amendment 5 to the fishery management plan capped fishery participation (number of
fishing days) and established measures to reduce fishing effort. In 2004, implementation of
Amendment 13 overhauled this plan and established rebuilding programs for all stocks that were
either overfished or subject to overfishing. The rebuilding period for all but three stocks under
this plan ends in 2014, 10 years after Amendment 13 was developed, 6 and at which time the
stock can be reclassified if it has been rebuilt.

Amendment 13 also specified a benchmark stock assessment and review of criteria used to
determine stock status in 2008, halfway through the rebuilding period for most stocks. This
assessment, now known as the GARM III, sought to evaluate fundamental scientific information
for all 19 groundfish stocks and was completed in August 2008. GARM III evaluated the data
and models used for assessing the stocks, evaluated the biological reference points, established
new reference points, assessed the biomass (i.e., quantity of fish) and fishing mortality status of



6
  The rebuilding period for Georges Bank cod is 2026, for Cape Cod /Gulf of Maine yellowtail flounder it is 2023, and for redfish
it is 2051.




                                                               5

the groundfish stocks in 2007, and provided examples of fishing mortality rates that would be
expected to rebuild overfished stocks. 7

Table 1. GARM III 2007 Stock Status a                                    Table 1, which summarizes the results of
                                                                         GARM III, shows that 15 of 19 stocks in
                                             2007           2007
Species                    Stockb        Overfishing       Stock is      this fishery management plan are
                                         is occurring     overfished     characterized as overfished or subject to
Cod                         GB                +               +          overfishing. Eight stocks are both
                           GOM                +                          overfished and subject to overfishing.
Haddock                     GB
                           GOM
                                                                         NMFS defines a stock of concern as one
Yellowtail flounder         GB                +               +          that is in an overfished condition or
                          SNE/MA              +               +          subject to overfishing. To rebuild these
                          CC/GOM              +               +          stocks of concern within statutory
American plaice                                                          timelines, NMFS must calculate the
Witch flounder                                +               +          percentages of required reductions in
Winter flounder             GB                +               +          fishing mortality for each stock in the
                           GOM                +               +
                          SNE/MA              +               +
                                                                         plan.
Redfish
White hake                                    +                In other words, NMFS must limit the
Pollock                                       +                amount of targeted and incidental catch
Windowpane                 North              +          +
                                                               of stocks of concern by a certain amount
                          South               +
Ocean pout                                               +     via a host of management measures
Atlantic halibut                                         +     intended to achieve required reductions
a
 The pollock and windowpane flounder information in this table in fishing mortality. Government,
was revised subsequent to GARM III in order to use 3-year      industry, and academic researchers and
averages, instead of 2-year averages, as used in GARM III. The
2-year average was the basis for one of the allegations we     fisheries managers described this work
investigated during this review.                               as complicated, predictive, and reliant
b
                                                               on estimates, models, and projections.
  GB – Georges Bank, GOM – Gulf of Maine, SNE/MA – Southern    NMFS has determined that all stocks
New England/Mid-Atlantic, CC – Cape Cod
                                                               except one should rebuild with a 50
Source: NMFS’ Proposed Interim Secretarial Action to           percent probability by the end of their
immediately reduce overfishing in the Northeast multispecies   respective rebuilding periods (2014
fishery, December 2008
                                                               except for three stocks). Fifty percent
                                                               probability of success has become the
                                                               standard for fisheries management plans
in the northeast region due to the uncertainty associated with recruitment 8 of a stock and biomass
trends, coupled with the variable effectiveness of management measures in place.


7
  As required by Amendment 13, the GARM III assessment dealt with all 19 species at the same time. This was different than the
process used by the Science Center in the past. Generally, Stock Assessment Workshops assess fewer stocks (between 1 and 5) at
one time. Also, the external, independent peer review conducted by the Stock Assessment Review Committee generally follows
the Stock Assessment Workshop. For the GARM III assessment, however, independent peer reviewers were present at the stock
assessment meetings, and peer reviewers drafted their independent reports from these meetings.
8
  Recruitment is an important component of fish stock population dynamics that refers to the survival of juveniles. It plays an
essential role in the life history of marine organisms, because the survival of juveniles is linked to adult populations.




                                                               6

Table 2 summarizes NMFS’ proposed reductions to fishing mortality rates to meet the rate goals
resulting from GARM III. For example, the most severe reduction in fishing mortality is for
Southern New England/Mid-Atlantic stock of winter flounder, described as severely depleted;
the proposed reduction in fishing mortality rate from 2008 is by 100 percent. As a result, no
catch of this stock is envisioned in 2009.

Even though there is scientific uncertainty associated with these estimates, NOAA’s data
indicates that 15 of 19 groundfish stocks are overfished or subject to overfishing under the MSA.
This requires prudent, conservative, or stringent management measures to rebuild the stocks by
an end date. In other words, once a stock is
determined to be overfished and subject to               Table 2.
overfishing, NMFS must cut fishing mortality and         Proposed Reductions to Fishing Mortality
                                                         Rates for 2009
rebuild the stock. This puts the already struggling                                        Proposed
groundfish industry under considerably more                                               Reductions
pressure.                                                                                  to Fishing
                                                              Species           Stock
                                                                                                 Mortality
                                                                                                Rates (%)
Historical Context of Atlantic Sea Scallops                                         GB                 - 40
                                                                  Cod
Allegation                                                                         GOM                  -21
                                                                                    GB                 322
                                                                Haddock
The Atlantic Sea Scallop fishery management plan                                   GOM                   72
                                                                                    GB                 - 16
was implemented in 1982 to restore adult scallop           Yellowtail flounder    SNE/MA               - 38
stocks and reduce year-to-year fluctuations in stock                              CC/GOM               - 18
abundance. Early plan amendments significantly
                                                            American plaice                              92
reduced fishing effort by limiting access to the
resource, allocating days at sea (number of days a          Witch flounder                              - 32
                                                                                    GB                    98
vessel is allowed to fish for scallops each year),          Winter flounder        GOM                  - 11
implementing gear restrictions to improve the escape                              SNE/MA              - 100
of small scallops and finfish, and limiting crew size.         Redfish                                  375
Area closures in New England and the Mid-Atlantic             White hake                                  29
and possibly other environmental factors have                  Pollock                                  - 48
                                                                                   North                - 74
resulted in increased scallop biomass both within            Windowpane
                                                                                   South                - 21
and outside of the closed areas. The scallop plan has         Ocean pout                                 NA
been further developed over the years by adjusting          Atlantic halibut                            - 27
the annual day-at-sea allocation to achieve optimum       NA - not available.
                                                          Source: NMFS’ Proposed Interim Secretarial
yield in the scallop fishery, controlling access in       Action to immediately reduce overfishing in the
several closed areas, and introducing area-based          Northeast multispecies fishery, December 2008
management strategies, reducing bycatch, and
protecting essential fish habitat.

Over the past 10 years, management of sea scallops has resulted in a dramatic increase in
abundance (see figure 3) and the development of a highly profitable commercial Atlantic sea
scallop fishery, reported at $385 million total revenue in 2007.




                                                  7

                 Figure 3. Atlantic Sea Scallop Fishery Management Plan Amendments, with
                 Landings, Exports, and Imports

                      m


                           --- -J ==-           ::':~I---- -------_-------------------------
                            ----~--------­

                 ,,   40   __   •
                            ~.~-_}          _


                                                         .-
                                                -------------------------~~-----


                                                                              •~,•
                 ,                              ---- -   -,--
                                                         ,,
                                                                - ---- -   ---. '
                                                                              '" <
                                                                                   - ---- -   ,--
                                                ------J----------Jf------I--
                                                                              I. --
                      "    ,,,.,.. ,ggo ,,"', """ '''''' ,_     HlQI' ""',,!!!                  000ll 000'   =   2<XI3 2004 000!l   0000



                 Source: Framework 19 to the Scallop Fishery Management Plan, April 29, 2008



In 2001, a formal consultation, as required by Section 7(a)(2) of the Endangered Species Act
(ESA), sought to determine whether the scallop fishery would jeopardize the continued existence
of the loggerhead, leatherback, Kemp’s ridley, green sea turtles, or any other ESA-listed species
under NMFS jurisdiction. The resulting biological opinion concluded that the scallop fishery did
not jeopardize the existence of the turtles. To date, the consultation has been reinitiated four
times, each time based on new information. And in each case the determination was made that
the fishery does not jeopardize the existence of the turtles. Each time, the biological opinion
contained “Reasonable and Prudent Measures” to reduce incidental turtle takes. The most recent
opinion was initiated on April 3, 2007, based on new information regarding the capture of sea
turtles in scallop trawl gear published by the Science Center.

We were asked to investigate the allegation that NMFS did not use the best available scientific
evidence when it reduced the scallop fishery harvest during the 2008 summer and fall seasons.
However, we found that on October 1, 2008, the Fisheries Survival Fund filed suit against the
Secretary of Commerce alleging that the Department of Commerce, NOAA, and NMFS violated
an ESA regulation concerning the scope of the Reasonable and Prudent Measures and associated
Terms and Conditions presented in the biological opinion, and that these measures were
implemented in an arbitrary and capricious manner. 9 Due to the pending litigation, we stopped
investigating this allegation.




9
  Fisheries Survival Fund v. Gutierrez (1:08cv01679, D.D.C). See also Oceana v. Gutierrez (1:08cv01881, D.D.C), also related
to this issue.




                                                                              8

ISSUES FOR NOAA TO ADDRESS

I.	 A History of Poor Communication and Mistrust in the Northeast Region Colors How
    Individuals View NOAA’s Management of Fisheries

Our examination of the allegations identified weak points in NOAA’s interactions with the
fishing industry with respect to its Magnuson-Stevens responsibilities. As detailed below, we
believe these weaknesses are at the core of several of the allegations.

The Relationship Between the Northeast Groundfish Industry and NMFS Is Characterized by
a Lack of Confidence and Trust

We found generally that the northeast region’s groundfish industry lacks confidence in the
fishery management process. Some interviewees impugned the science, but many more
impugned the management decisions made with the science. This is based on a long history of
sparring between the groundfish industry and NOAA regulators over limits to the amount of days
that fishing vessels can spend at sea, regulating certain types of gear, or closing some traditional
fishing grounds to fishing. The challenges inherent to balancing a sustainable fishery with
industry’s interests, coupled with ineffective efforts to rebuild stocks, have also contributed to
this unproductive relationship. In our view, a general lack of confidence and trust in NMFS is at
the core of many of the current allegations made about the science. Out of the nine allegations
we examined, we concluded that six are the result of ineffective communications and ongoing
tension between the groundfish industry and NOAA.

Most interviewees acknowledge that fisheries science is complicated, predictive, and
characterized by uncertainty, and one senior NMFS official stated that “best available science,”
as required by the Magnuson-Stevens Act, does not always mean “good science.” Very few
interviewees told us that they think NMFS scientists are deceiving fishermen or acting with
malice. We heard from many stakeholders external to NOAA, even from several fishermen and
external fisheries science researchers, that that Science Center’s research is as good as it gets,
even world-class, and that the scientists do the best they can with what they know. 10 Scientists
we interviewed accept that science is about hypothesis testing—disproving and refuting
hypotheses—and acknowledge that fisheries science can and should be continuously improved.




10
   Following the presentation of the GARM III assessments, the New England Fishery Management Council sent two official
letters to the Science Center expressing appreciation for the science used in these assessments and citing their “outstanding
contributions to the process.” See correspondence from Paul Howard, executive director of the New England Fishery
Management Council, to Nancy Thompson, science and research director of the Northeast Fisheries Science Center, dated
September 8, 2008. See also correspondence from Howard to Thompson, dated October 24, 2008. The letter dated October 24,
2008, acknowledged “recent criticisms concerning the quality of the work” regarding the GARM III process and explicitly
recognized the “competence, hard work and high level of integrity” of the Science Center staff. According to NMFS officials, it is
not typical for fishery management councils to expressly thank science centers for assessment work in formal correspondence.
The fact that the council, comprised of many current and former fishing industry members, expressly praised the Science Center
demonstrates a level of confidence in the science, which directly opposes the allegations we were asked to investigate.




                                                                9

Ineffective Communication and Misunderstandings Between NMFS and Industry Erode Trust

In our view, many of the allegations we investigated stem not from questionable scientific
methods, but rather from unclear communication and misunderstandings between NMFS and the
fishing industry that have the effect of eroding the industry’s trust in NMFS. Despite the
limitations of stock assessment science, we found that NMFS considered and adequately
accounted for competing scientific considerations, and its conclusions drawn from the data were
reasonable, even to external scientists. Following are several examples of insufficient
communication from NMFS to the groundfish industry, or misunderstandings by the groundfish
industry based on incomplete information.

Time Series Allegation Reflects an Inadequate Explanation of a Weakness in NMFS’ Data and
How NMFS Corrected for It
One of the allegations we were asked to investigate involves whether NOAA was justified in
“splitting the time series” of its trawl survey data to correct for a bias in the modeled data. Upon
investigation, we found a clear lack of understanding on this issue among members of the
                                                    industry and the Fishery Management Council.
 NOAA Trawl Surveys
 NOAA monitors the status of a wide variety of              The specific allegation from several members of
 marine finfish and shellfish populations through           the industry and the Fishery Management
 bottom trawl survey programs.                              Council is that NMFS arbitrarily chose the year
 In conducting the surveys, a trawl net is towed for a 
    1994 for the split in time series. As a result,
 specified time at a number of statistically sampled        industry felt that the GARM III results made 

 sites. Upon completion of a tow, the net is hauled         “progress look worse” in rebuilding some

 up and emptied on the deck. The sample is sorted
          groundfish stocks. At the root of the allegation is
 by species, measured and weighed. Data from trawl
 surveys are used to generate indices of relative           a very technical statistical problem whose exact
 abundance so that fisheries managers can monitor 
         cause and solution have not yet been determined
 population trends. In the northeast region, the            by scientists in the U.S. or anywhere in the 

 indices are used, in conjunction with data from            world. 

 state, Canadian, and a few industry-based surveys,

 to develop stock assessments and fishery

 management plans.                                    Generally, stock assessments rely on models
                                                      that use historical and current survey data (“time
  The northeast region’s autumn bottom trawl surveys
                                                      series” data) to estimate the stock population.
  began in 1963. These are the source of the longest
  continuous time series of marine research vessel    These models are predictive in nature and seek
  sampling data in the world. For the finfish survey, to forecast the stock population under certain
  about 300 sites are randomly chosen in waters 2 to  levels of fishing mortality. One way to examine
  200 fathoms deep off the northeast U.S., from the   the predictive validity of these models is to
  Gulf of Maine to Cape Hatteras. Spring surveys
                                                      conduct retrospective analyses to determine the
  were added in 1968.
                                                      accuracy of a particular model. Researchers 

  Source: NOAA web site 
                             look back at the prediction of the model for a
                                                      particular year and compare it with the historical
data actually collected for that year to see if there is bias in the data or the models used to make
the predictions that inform fishery management measures. Retrospective patterns, or bias, result
when the model produces a consistent over- or underestimation when compared against the
historical data. For example, in many of the northeast stocks, scientists have found a
retrospective pattern (bias) that results in stock assessment models estimating a higher stock



                                                           10 

biomass and a lower fishing mortality than what actually happened according to the historical
data. These biases can be due to either bias in the data that goes into the model (e.g., unrecorded
landings) or incorrectly specified variables in the model (e.g., assuming a constant natural
mortality rate across ages).

Scientists at NMFS have led a working group devoted to researching causes and solutions to this
retrospective problem for at least 2 years. The International Council on Exploration of the Seas
(ICES), a group of international researchers that includes representatives from NMFS, has been
researching this problem for at least 15 years. Though the exact causes of this retrospective
pattern bias is yet undetermined, we found no evidence that NMFS is failing to use the best
scientific data available. In contrast, we found that NMFS is actively working toward
determining a cause and finding a solution to this problem. Several external researchers agreed
that splitting the time series was a reasonable alternative to use during the GARM III
assessments, given the currently available scientific data. One international scientist noted that in
some other countries, time series data are split with less scientific rigor and scrutiny than in the
U.S. Splitting the time series allows researchers to produce the best (i.e., least biased) catch
advice moving forward. It is an imperfect technical fix to a data problem, akin to rebaselining,
but some kind of adjustment was necessary according to many of the researchers with whom we
spoke. Also, a 2008 study from ICES supports splitting the time series as a plausible measure for
this type of data problem. 11

Some members of the industry and the Fishery Management Council do not seem to have a clear
understanding of why NOAA researchers have split the time series. We heard from a few
industry members that splitting the time series would result in fewer fish to catch, but several
were not clear about the reasons supporting this. Allegations that NOAA is doing this in an
arbitrary way indicate a lack of clear communication by NOAA to industry members. Based on
our discussions with NOAA scientists and external, independent scientists, we do not believe the
decisions were arbitrary or misguided. We do believe, however, it is NOAA’s responsibility to
clearly communicate its scientific decisions to constituents, even more so when the science is
complex.

With regard to the specific allegation, our discussions with NOAA scientists and several external
researchers revealed that two significant events occurred in 1994 that could have led to a change
in the fishery and, thus, the data:

     1.	 NMFS changed the way landings data was collected in the United States in an effort to
         make it more objective and valid. Prior to 1994, landings data was collected via self-
         reports from vessels; after 1994, vessel trip reports verified by vessel observers and
         dealer reports were the sources of the data. If self-reported landings had been
         underreported, the change in methodology could result in an increase in reported
         landings.



11
  International Council on Exploration of the Seas, 2008. Report of the Working Group on Methods of Fish Stock Assessments,
7-16 October 2008,Woods Hole, Massachusetts, USA. ICES CM 2008/RMC, p. 1.




                                                             11 

     2.	 NMFS made significant management changes to the fishery in 1994. Amendment 5, for
         example, put a cap on groundfishery participation and developed measures to reduce
         fishing effort for the first time.

We found that even though these significant changes to the fishery occurred in 1994, most
industry representatives with whom we spoke did not consider the impact of the changes in the
management of the fishery, which could have led to a change in the fishery data. This indicates
to us that in this instance there was a lack of clear communication between the Science Center
and the industry, or unwillingness on behalf of the fishing industry to listen, or both, contributing
to the lack of confidence in the science.

Poor Communication by NOAA about the Multispecies Exemption
The “multispecies exemption” to Magnuson-Stevens’ requirement to prevent overfishing while
achieving optimum yield from each fishery is another area where confusion could be clarified by
NOAA. During conversations with members of the fishing industry, as well as with researchers
external to NOAA, we heard that NMFS should use this exemption to allow more fishing of the
recently abundant haddock stock despite the depleted cod stock. This exemption has never been
employed, though the law allows for it under certain circumstances. The law allows one or more
stocks to experience overfishing, but not be overfished, only if it can be demonstrated that (1) the
action will result in long-term net benefits to the nation; (2) the action would not cause a stock to
be driven to a dangerously low level; and (3) analysis showed there were no reasonable
alternatives. 12

Several Fishery Management Council members stated that whenever the possibility of the
exemption is raised, the Northeast Regional Office denies its use without any public discussion,
or dismisses it by saying it will be considered, but then never revisits it. According to several
NMFS senior officials, it would be virtually impossible to show that increased fishing of
haddock was in the best long-term interest of the nation, for example, or that there are no other
reasonable options. We found no evidence indicating that NMFS has discussed its policy about
the multispecies exemption with industry or provided guidance to industry on its possible use.
NMFS officials also told us they suspect that people who urge consideration of this exemption
do not understand it. Nonetheless, it remains NMFS’ responsibility to educate the Fishery
Management Council and the industry about this exemption and its very strict guidelines given
the evident confusion that surrounds both. We will recommend to NOAA that it should clarify its
policy on the multispecies exemption.

Perception that NOAA Sets Conservative Catch Limits
We also heard allegations from several industry representatives that NMFS always sets
management measures in a conservative way, ignoring the Magnuson-Stevens Act requirement
to obtain optimum yield from the fisheries. From industry representatives, we heard that
according to NMFS, Georges Bank yellowtail flounder in 2002-2003 was totally rebuilt and was



12
  Code of Federal Regulations Title 50: Wildlife and Fisheries, Part 600—Magnuson-Stevens Act Provisions, Section 600
Section 310. See also MSA, Section 301.




                                                            12 

heralded by the agency as a success. 13 Fishermen caught all their allowable harvest in 2004, but
at the end of the fishing year NMFS reported that the stock had “collapsed.” To the fisherman,
this demonstrated that NMFS’ science was unreliable.

We learned, however, that the Science Center in 2002 and 2003 offered the scientific advice to
fishery managers that although the stock population was at a good level, other variables did not
look as positive. For example, the stock was concentrated in a small area, the age structure was
not ideal, and the models were exhibiting early symptoms of the retrospective patterns, or bias,
described earlier. These were reasons to use caution when managing the fishery and setting
quotas, but catch rates were set by the Fishery Management Council and the Northeast Regional
Office to the maximum point in the range recommended by the Science Center. As it turned out,
the catch rate was too high and fish were harvested from a smaller population than initially
estimated, resulting in the stock’s decline. In this example, NMFS management set liberal—not
conservative—catch limits, but industry blamed the science for the resulting decline in stock.
Industry representatives and state officials described this as “whipsaw” management—going
from one extreme to the other in a short time period—which further erodes confidence in the
process.




13
   See also Stone, H.H., Gavaris, S., Legault, C.M., Neilson, J.D. and Cadrin, S.X. 2004. “Collapse and recovery of the yellowtail
flounder (Limanda ferruginea) fishery on Georges Bank.” Journal of Sea Research, Volume 51, Issues 3-4, May 2004, pp. 261-
270.




                                                               13 

II. 	NOAA Has Made Limited Progress in the Northeast Region Improving the
     Transparency of its Fishery Management Process Since 2004

While NOAA has taken some steps to improve the transparency of its fishery management
process, we found several examples of NOAA actions that have contributed to the breakdown in
the relationship between NMFS in the Northeast Region and the fishing industry, as it relates to
managing fisheries.

NOAA’s Poor Handling of a 2008 FOIA Request Contributes to its Reputation in the
Northeast Region as an Agency That Is Unconcerned with Transparency

We were asked to investigate concerns related to a FOIA request made by the sea scallop
industry. While the act provides for enforcement by the requester, we did review NOAA’s
compliance with Department of Commerce policy as it relates to the handling of FOIA requests.
We found that in this case NOAA did not meet required FOIA deadlines and overestimated the
fees associated with the FOIA request. Though we have seen no evidence of a deliberate attempt
to conceal information, industry members view such exchanges with NOAA as indications that
NOAA is not being transparent and open—characteristics highlighted by the National Research
Council as needing improvement in its 2004 report. 14

We heard from several sea scallop industry representatives that NOAA’s mishandling of this
FOIA request was frustrating to them, yet not surprising given previous exchanges with the
agency. Interactions like this will only serve to further erode the industry’s confidence in NOAA.
For each interaction with the industry, NOAA would benefit by emphasizing transparency and
openness. This allegation is discussed more fully in attachment A, pages 33-35.

Understandable and Straightforward Presentation of Scientific Information by NOAA Is
Fundamental to a More Transparent Process

In its 2004 review, 15 the National Research Council recommended to NOAA that “the
presentation of scientific information at regional fishery management council meetings should be
concise and as free of scientific jargon as possible.” This is worth reiterating, given the current
lack of confidence in NOAA’s science, as articulated by representatives of the groundfish
industry. Effective communication between NMFS scientists and stakeholder groups remains
challenging. For example, NMFS scientists must be effective spokespeople and have the ability
to engage with nonscientific audiences or, at a minimum, the Science Center needs to have staff
that can serve in this function. The Science Center must continually improve its ability to
communicate scientific results to the Fishery Management Council in a meaningful way. Several


14
   National Research Council, 2004. Improving the Use of the "Best Scientific Information Available" Standard in Fisheries
Management. NOAA Fisheries asked the National Research Council’s Ocean Studies Board to examine the application of the
term “best scientific information available” as the basis for fishery conservation and management measures required under
National Standard 2 of the Magnuson-Stevens Act. National Standard 2 was under scrutiny as Congress developed legislation for
an upcoming reauthorization of the Magnuson-Stevens Act, which occurred in 2006.
15
   National Research Council, 2004. Improving the Use of the "Best Scientific Information Available" Standard in Fisheries
Management, pp. 2 and 60.




                                                             14 

industry representatives told us of their confusion with Science Center explanations of scientific
results, which they said further undermines their confidence in the fishery management process.

The Gulf of Maine Research Institute’s Marine Resource Education Program is one example of
efforts to teach industry members about science, the legal framework, and fisheries management.
This program, which consists of a 3-day seminar on fisheries science and a 3-day seminar on the
management process, both educates industry members and brings them together with NOAA
staff in a nonconfrontational arena. We heard from industry members and researchers that
relationships formed during these seminars provide a foundation that continually supports the
ongoing interactions between NOAA and the industry during the fisheries management process.
According to those with whom we spoke, these relationships help break down barriers and
eliminate preconceptions that each party has of the other.

We reviewed materials from a recent session and found agenda items that address many of the
concerns and allegations we heard from industry members during this investigation. For
example, if more industry members participated in such forums, confidence in fisheries science,
understanding of management processes, and relationships with NOAA could improve.
However, as the science and modeling procedures become more complex, it will take greater
effort to provide the management councils with understandable and straightforward explanations
of the procedures and the results. We think this is a particularly important challenge that NOAA
faces regarding these allegations.

                                                 In a related issue of transparency, as we
 Table 3:
 Gulf of Maine Marine Resource Education 
       investigated the incorporation of environmental
 Program                                         influences into stock assessment models, we 

                                                 learned of much research under way at the

 Years MREP has been offered:             6
     Science Center in this regard. However, members
 Number of participants:                  303
                                                 of the industry we spoke with were largely
 Number of current New England FMC
  members who have attended:              8      unaware of these studies.
 Number of members of other FMCs:         3
                                                While the Science Center’s initiative to make its
 Source: Marine Resource Education Program, as  research papers available online is commendable,
 of January 1, 2009
                                                NOAA could take additional steps to make these
                                                papers more accessible to the general public.
Navigating the Science Center’s web site is not very easy or intuitive, and if interested users do
not know exactly what to search for, they may not come across the relevant research. We think
confidence could be increased if the industry were aware of the quantity of research that has been
conducted or is in progress. On this front, we will recommend that NOAA improve the usability
of the Science Center web site such that users can search by species or type of research to find
relevant articles. We think this would improve the relationship between NOAA and the industry
and be another step to improve confidence.

We acknowledge several steps that NMFS’ Northeast Regional Office has taken in an attempt to
improve communication and be more transparent. These include providing information to the
publication Commercial Fisheries News, producing publications and informational guides on
regulations, creating public meeting space in the design of the new NOAA building in



                                                 15 

Gloucester for fishers to meet with NMFS staff, and working to get the Days at Sea system
online so that fishermen can check their days-at-sea balance on the Internet. However, the
Northeast Regional Office web site—a critical communications tool—was not functioning
during the majority of our 4-month investigation. This does not contribute to a public image of
openness and transparency.

Increased Industry Involvement in Research Efforts Builds Confidence with NMFS

We heard from several NOAA officials,
Fishery Management Council members, and                       Cooperative Research Partners Program (CRPP)
industry representatives that involving
                                                              “In FY 1999, the Northeast Regional Office of the
fisherman in research is an excellent way to                  National Marine Fisheries Service (NMFS) developed
increase confidence in NOAA research.                         the Cooperative Research Partners Program (CRPP)
Collaboration between NMFS and the sea                        … to formalize and expand collaborative research
scallop, surf clam/quahog, and monkfish                       among New England's commercial fishing industry,
industries was offered as positive examples of                marine science and fishery management communities.
                                                              The goal of this initiative is to enhance the data upon
cooperative research. While the groundfish                    which fishery management decisions are made as well
industry already collaborates with several                    as to facilitate communication and collaboration
universities and states, it desires more than the             among New England commercial fishermen,
current level of participation in NMFS                        scientists, and fishery managers. Through this
research, and urges consideration and use of                  initiative, CRPP partners are collaborating with the
                                                              New England Fishery Management Council in setting
industry data in NMFS stock assessments. We                   research priorities to meet management and fishing
heard from several stakeholders that when                     industry needs.”
funding levels for cooperative research were
higher for the northeastern groundfish                        Funding for cooperative research in this region has
industry, relationships between NOAA and                      fluctuated since 2000, with a high of $9.8 million in
                                                              2002 and a low of $3.2 million in 2005. Funding for
the industry were noticeably better than they                 2008 was $4.2 million
are now.
                                                              Source:
The GARM III assessments made use of 	           http://www.nero.noaa.gov/StateFedOff/coopresearch/
several sources of industry- and state-based     crpp.html; NEFSC data.
data collections. The Maine-New Hampshire
inshore groundfish survey, which began in
2000 and has over 5 years of data, is a good example of state and industry cooperation on
research that influences NMFS science. The Massachusetts survey was also considered for
several stocks in the GARM III assessments, including Gulf of Maine cod and Cape Cod/Gulf of
Maine yellowtail flounder. 16 The GARM III reports provide indications of how industry-based
surveys are being used successfully and recommendations for using these surveys in the future:

     •	 Industry-based surveys are “generally set up to address issues that may not be answered
        well by traditional, long-running scientific surveys.” 17
16
   Northeast Fisheries Science Center, 2008. Assessment of 19 Northeast Groundfish Stocks through 2007: Report of the 3rd
Groundfish Assessment Review Meeting (GARM III), Northeast Fisheries Science Center, Woods Hole, Massachusetts, August 4-
8, 2008, pp. 236, 268.
17
   Northeast Fisheries Science Center, 2008. Appendix to the Report of the 3rd Groundfish Assessment Review Meeting (GARM
III): Assessment of 19 Northeast Groundfish Stocks through 2007, Northeast Fisheries Science Cent Ref Doc. 08-16; p. 882.




                                                           16 

       •	 Industry-based surveys “are exceptional at providing . . . fish distributions, spawning
          areas, age-length keys, maturity and maturation rates and other biological characteristics
          on a finer scale (in many cases) than that provided by more general NMFS surveys. The
          review panel encourages the further development of these surveys and considers further
          studies on their applicability to be valuable.” 18

Based on our work, we believe that additional cooperative research involving the groundfish
industry could assist NOAA with biological data (including size, composition, age, weight and
stomach content data), ecological data, and habitat research. Additionally, involving the industry
in calibrating the new NMFS research vessel might be a way of increasing the industry’s
confidence in its findings.

Side-by-side research survey trawls—with an industry vessel trawling next to the NOAA vessel
—were advocated by many members of the industry and some in the academic community.
There is a widely held perception by fishermen that NOAA’s survey trawl does not catch as
many fish as industry does, so industry has little trust in it. Memories of “Trawlgate” in 2002—
when the Science Center publically admitted it made calibration errors in its research survey
                                                           vessel—exacerbate this concern. In that case,
    Inherent Conflict Between Scientific Surveys
               and Commercial Fishing
                                                           acting  on the advice of industry members,
                                                           NOAA inspected the trawl cables on the NOAA
 “There is always disagreement between fishermen           Ship Albatross IV’s sampling equipment and
 and government scientists... Imagine an overfished        found that the cable attaching scientific survey
 area of the sea in the shape of a hockey field with       gear to the vessel was inaccurately calibrated.
 nets at either end. The few fish left therein would
 gather around the goals because fish like structured
                                                           That meant that the vessel could be dragging its
 habitat. Scientists would survey the entire field,
       nets through the water lopsided, catching fewer
 make lots of unsuccessful hauls, and conclude that        fish, and leading scientists to conclude there 

 it contains few fish. The fishermen would make a          were fewer fish in the sea. NOAA ultimately 

 beeline to the goals, catch the fish around them, and
    took measures to remedy the errors that
 say the scientists do not know what they are talking
 about. The subjective impression the fishermen get
                                                           occurred on the vessel and worked to make the
 is always that there's lots of fish - because they only 
 survey data comparable to those of previous
 go to places that still have them... fisheries scientists surveys. Nevertheless, this increased suspicion 

 survey and compare entire areas, not only the             among the groundfish industry. 

     productive fishing spots.” 

     - Fisheries scientist Daniel Pauly            We did hear a counterargument from
  Source:
                                                   researchers both internal and external to NOAA
  http://www.seaaroundus.org/magazines/2008/Fisher that industry-based surveys do not have the
  manLife_AnInterviewWithDanielPauly.pdf           same standards of scientific rigor as NOAA
                                                   trawl surveys. One reason provided was that
                                                   members of the industry often have the goal of
maximizing their catch while at sea, even while doing research, which affects the comparability
of these surveys to NOAA’s. Industry-based surveys are also less likely to employ random
sampling techniques (as required by statistical modeling for sample surveys) and more likely to
fish in areas where they know there are fish (identified by their on-board technology, knowledge

18
     Ibid., p 889.




                                                     17 

of where fish can usually be found, or through contact with other fishing boats in the area).
Nonetheless, side-by-side trawls could be used to test the validity of the NOAA surveys and thus
improve confidence and relationships with the fishing industry.

When examining the issue of rebuilt haddock and depleted cod, we learned of cooperative
research with the industry to design separator trawls that work on the basis of differing behaviors
between the species upon encountering a trawl. This type of cooperative research is a positive
step forward, and we recommend that NOAA continue these types of ventures that can lead to
increased participation of the industry in management measures. This has been successful in the
scallop fishery where the industry has participated in gear innovations that have allowed this
fishery to again become productive and lucrative.

Finally, a community-supported fishery developed by the fishermen’s cooperative exists in Port
Clyde, Maine. The fishery is modeled after the community-supported agriculture concept.
Community-supported fishery members pay for shares at the beginning of the season and pick up
their shares of locally caught fresh seafood (including groundfish) each week. Fishermen commit
to not catching juveniles and to taking measures beyond those required to ensure sustainable
fishing practices. According to the program director, this program gives both fishermen and
community members a sense that they are participating in the recovery of the fishery. We think
that NMFS, in the northeast specifically, should encourage this type of creative effort, and
publically provide positive feedback for industry members who are working toward a
sustainable, profitable fishery. Such recognition could be modeled after the national NOAA
Sustainable Fisheries Leadership Awards, but focused specifically on the struggling northeastern
groundfishery. 19




19
  The Sustainable Fisheries Leadership Awards were created to recognize outstanding performance, achievements, and leadership
by industries, organizations, and individuals whose contributions to science and management have promoted best stewardship
practices for the sustained use of the nation's living marine resources. The Sustainable Fisheries Leadership Awards were
initiated in June 2005. See http://www.nmfs.noaa.gov/awards/index.htm for details on the NOAA Sustainable Fisheries
Leadership Awards.




                                                             18 

III. Several Issues Reinforce the Need for NOAA to More Aggressively Pursue Ecosystem
Approaches to Fisheries Management, Which Require Additional Data and New Models

While examining the allegations regarding                              Stock Assessments and the Ecosystem –
yellowtail flounder and haddock, we encountered                        Not Quite There Yet
several issues that demonstrate the need for
                                                                       Three tiers of stock assessments exist. The first and
NOAA to more aggressively pursue ecosystem                             most basic assessment is the single-stock assessment.
approaches to fisheries management. For a more                         The next level is a multispecies assessment that
detailed discussion about the yellowtail flounder                      examines how species interaction affects growth and
and haddock allegations, see attachment A, pages                       mortality. The top tier is an ecosystem assessment that
29-31.                                                                 would include single and multispecies effects as well
                                                                       as environmental factors. At each stage, the goal is to
                                                                       forecast relative stock populations based on current
NOAA Scientists Are Beginning to Investigate                           data. NOAA scientists have been and are currently
the Impact of Ecosystem Changes on Stock                               working within the first tier of single stock
Assessments                                                            assessments, but are working toward multispecies and
                                                                       ecosystem approaches. Using data currently available,
                                                                       during the GARM III assessment, the Science Center
We learned that the Science Center has made                            conducted an ecosystem assessment and determined
some advances in conducting ecosystem impact                           that the biomass management targets used in the
studies, but most current stock assessments do not                     GARM were reasonable.
produce data detailing those impacts. Most people
we interviewed, from NOAA, the Fishery                 Although scientists are admittedly not to a point
                                                       where they can build predictive ecosystem models,
Management Council and the fishing industry,           they have been able to note signals and symptoms of
were anxiously awaiting more research on               ecosystem changes in the current single stock
ecosystem effects, but we heard from NOAA and          assessments.
external researchers that ecosystem models are
not currently used to predict trends in stocks.        Sources: GARM III Report and Appendices
Several scientists mentioned that ecosystem models require more data then can currently be
collected with current funding levels, and that the newly developed ecosystem models are still
unproven. 20

Senior management at the Science Center agreed that it is “absolutely important” to look at
environmental impacts on stocks, and noted that the Science Center has been collecting some
environmental/ecosystem data since the 1960s (for example, salinity, PH levels, temperatures).
In August 2008, the Science Center created an Ecosystem Assessment Program with the goal of
having a “core capacity” to conduct ecosystem research. This is an important organizational step
that should help focus the Science Center to more aggressively plan, coordinate, conduct, and
review research that can inform ecosystem management decisions for fisheries.

In the most recent groundfish stock assessments, NOAA took another step forward and used
terms of reference focused on ecosystem factors. In response to this, 12 working papers were
presented regarding ecosystem data at the GARM III meetings. 21 These papers indicate that
20
   The fisheries management plan for sardines developed by NMFS’ Pacific Fishery Management Council was cited by one
NOAA official as a best practice for how to incorporate ecosystem effects into stock assessment models. This could be used as a
general model of how to move forward in the northeast.
21
   Northeast Fisheries Science Center, 2008. Appendix to the Report of the 3rd Groundfish Assessment Review Meeting (GARM
III), see pp. 862-869 and 975.




                                                              19 

environmental or ecological changes can be taken into account during single stock assessments
without a full ecosystem model, and that several factors that can be observed in the fish
population are suspected to have bases in ecosystem changes. For example, in the yellowtail
flounder assessment, scientists decided to focus on data from the most recent decade because of
changes observed in the stock during the last few decades. This resulted in a lower target stock
biomass because of the realization that the stock is growing more slowly than in the past. The
scientists report they are still testing hypotheses to find out why this is happening, but
environmental or ecological changes could have been an influence. This is a promising example
of NOAA’s advancement in pursuing ecosystem approaches to fisheries management, 22 but
more needs to be done.

NOAA fisheries scientists and other researchers also told us that they strive to better understand
how ecosystems affect, and are affected by, human activities and management action. We also
learned that more understanding about human and environmental impacts on the marine
environment is needed to further develop NOAA researchers’ understanding of the physical,
chemical and biological processes in marine ecosystems, and their interrelationships with human
activity. During our interviews, scientists told us that the impacts on fisheries of contaminants
from the mainland that end up in the seas, such as pollutants, medical waste, or agricultural
fertilizers, remain largely unknown.

NOAA Lacks Research on Interactions within Ecosystems

We heard from many NOAA and external researchers that it is difficult to study groups of
organisms that occupy complex systems, such as the marine ecosystems relevant to the
allegations we were asked to examine related to sea scallops and groundfish. The scientists we
interviewed agreed that most fisheries research still focuses on only one or two species at a time,
out of the dozens or hundreds that might occupy a typical habitat. Fisheries researchers with
whom we spoke also acknowledged that although the fate of each fish stock is determined by the
actions of other species that occupy the same habitat, scientists are still unable to adequately
describe the interactions between species in underwater habitats, and do not have enough data
about these interactions.

During our review, the question was often raised by industry members as to how much NMFS
knows about stocks’ competition for space and resources on the ocean bottom. NMFS
researchers confirmed to us that while single species stock assessments are the norm, NOAA is
slowly moving toward more ecosystem-based assessments. Some NMFS researchers
acknowledged that ecosystem carrying capacity—the capacity of an ecosystem to support
healthy organisms while maintaining its productivity, adaptability, and capability for renewal—is
not taken into account in most stock assessments, mostly due to a lack of data on these
interactions. So while we heard from fisherman that as cod has declined over the past few


22
   As an example of modest progress in this arena, in 2008 an attorney from NOAA’s General Counsel presented, to new fishery
management council members, several provisions in the Magnuson-Stevens Act, including National Standard 2 (best available
science), identified as contemplating a role for the consideration of climate-change related impacts on fishery management
decision-making.




                                                             20 

decades, dogfish and skates have filled that ecological niche, this is an intuitive effect not yet
verified by research.

Nevertheless, many in the industry and on the Fishery Management Council noted that it is not
realistic to build every stock to sustainable biomass levels simultaneously. Likewise, several
researchers who participated in GARM III acknowledged that not all species could be
maintained at historically high biomass levels, and the new assessments have lowered target
biomass levels for several species. New data, which reflects the new best available science,
substantiates this.

Additionally, several scientists emphasized that climate research is required to understand and
predict the effects of climate change on species, ecosystems, and humans. We believe that
NOAA scientists should more aggressively pursue studies of the response of fish populations to
climate change and changes in ocean circulation, and work with their partners to develop models
that can predict climate effects on fisheries. 23 Speaking with NOAA scientists, officials, and
attorneys, we note the incorporation of ecosystem factors, including possible impacts from
climate change, into stock assessments as a “work in progress.” 24 We will recommend to NOAA
that it should more aggressively pursue ecosystem approaches to fisheries management, which
will require additional data, new models, and analysis.

Conclusion

Our investigation of the allegations concerning the groundfish industry found an underlying lack
of confidence in NOAA among industry members in this region that continues to erode
confidence in NOAA’s fishery management and science. This finding is reminiscent of a
conclusion from a 1998 National Research Council review of the Northeast Fishery Stock
Assessments: “stock assessment science is not the real source of contention in the management
of New England Groundfish fisheries … the social and economic concerns created by strong
management measures and lack of participation in the management process were the more
important concerns.” 25

The history of contention between the groundfish industry and NOAA in the northeast, where
industry is suspicious of the science and views NOAA as biased in favor of conservation goals,
provides the backdrop for the decisions made by NOAA that impact the groundfish industry. Out
of the nine allegations we examined, six appear to be the result of ineffective communications
and ongoing tension between the groundfish industry and NOAA. The challenges inherent in

23
   As we began to investigate the allegation related to interactions between sea turtles and sea scallop gear, we learned that
NOAA has limited data on sea turtles in the northeast. Several researchers and fishermen noted that the appearance of sea turtles
in the northeast was a relatively new phenomenon, perhaps a result of warming oceans. We found no data to support or refute
these claims.
24
   See GAO-07-863, Agencies Should Develop Guidance for Addressing the Effects on Federal Land and Water Resources, an
August 2007 report to congressional requesters that found that federal resource managers, including at NOAA, face challenges in
addressing the observed and potential effects of climate change in management and planning efforts. GAO recommended the
Secretaries of Agriculture, Commerce, and the Interior develop guidance incorporating agencies’ best practices that advises
managers how to address climate change effects. Though the report focused on land management rather than living resources
management, it is instructive of the need for agencies generally to develop policies for taking climate change into account.
25
   National Research Council,1998b. Review of Northeast Fishery Stock Assessments, p. 7.




                                                               21 

balancing a sustainable fisher)' with industry's interests, coupled with limitcd success in
rcbuilding stocks, have contributed to this unproductil'e relationship.

Our findings show that the pervasive lack of trust and confidence the groundfish indust/) has in
NOAA manifests itself as doubt in the science. And our investigation ultimately turned its focus
on what NOAA is doing and can do to improve its relationship with the groundfish indust!),.
Without an impro\-ed relationship, we believe the science will continue to be questioned.

If you have any questions, or if we can be of funher assistanee. pleasc do not hesitate to contact
me at (202) 482-4661.

We have sent identical leners to Scnator Edward Kcnnedy, Senator John Kerry, and Senator
Susan Collins.

Sincerely.




Todd J Zinser
[n5p<.."<'tor General




ee.     Otto Wolff, Chief Financial Officer and Assistant Secretary for Administration
        Or. James W. Balsiger, Acting Assistant AdministI1ltor for Fisheries




                                                 "

Specific Allegations and OIG Findings                                                    February 26, 2009


Attachment A

Details Regarding the Specific Allegations and/or Concerns

This section outlines each allegation we investigated in detail, starting with the basis for the
concern, and then describes our findings.

1) The GARM III report incorrectly used the single fall survey biomass index from 2007 as a
basis for determining whether the pollock stock is overfished.

An overfished determination would necessitate a rebuilding plan under the Magnuson-Stevens
Act, thereby restricting the amount of pollock that fishermen are allowed to catch. We confirmed
that the GARM III report incorrectly used the single fall survey biomass index from 2007 as the
basis for determining that the pollock stock was overfished. The explanation given by Science
Center officials and scientists was that the single value point was mistakenly inserted into the
report a rush to finalize the GARM III process.

NMFS officials stated that to be consistent with prior approaches used by the New England
Fishery Management Council’s Plan Development Team, the appropriate method for
determining the 2007 stock status is to take the average of recent fall survey biomass indices.
There are several ways to compute the average (e.g., lagged versus centered; latest 3 years versus
latest 2 years) and different formulas for the average lead to different conclusions about whether
the stock is overfished. According to the Science Center’s lead pollock researcher, it was
determined that for the 2007 index a centered approach (average of data from 3 years including,
prior year, index year, and current year—in this case the average of data for 2006-2008) should
be used. However, this was not possible since the 2008 fall trawl survey had not been completed
in time for the last GARM III meeting in August 2008.

Therefore, the GARM III participants agreed to use a lagged approach (average of index year
plus previous years). According to Science Center officials, there were two alternatives for
computing the lagged average biomass index:

        1. a 2-year lagged approach (using data from 2006-2007), or

        2. a 3-year lagged approach (using data from        Figure 5.
        2005-2007).
                                                            BTHRESHOLD
                                                             B                      = 1.0 Kg/tow
                                                                 (Anything below this number indicates
Each of these formulas leads to different conclusions       the stock is overfished)
about whether the stock is overfished (see figure 5).       ---------------------------------------------
The choice of which formula to use is especially
                                                            2-year Lagged Average = 0.856 Kg/tow
important because the value from 2005 was the               (2006-2007)             Overfished
highest in 25 years. Given the signs in the recent fall
survey indices and in the annual landings that              3-year Lagged Average = 1.42 Kg/tow
                                                            (2005-2007)             Not Overfished
indicated the average biomass of the stock would
decline to a level approaching overfished and that the      Source: Northeast Fisheries Science Center
threshold would be breached within 2 years, the



                                                 23 

Specific Allegations and OIG Findings                                                        February 26, 2009


GARM III participants chose the 2-year lagged approach.

However, the number reflected in the GARM III report was the single 2007 data point—not the
lagged average. Regardless, both conclusions showed that the pollock stock was overfished.
After the New England Fishery Management Council notified NMFS of the error in using the
2007 number to make the overfished determination and its concerns about the exclusion of the
2005 data point in the lagged approach, NMFS officials determined that the “… high sensitivity
to the inclusion of a particular data point suggests that it is uncertain whether the stock is
currently overfished.” As a result and until the 2008 fall survey index could be calculated, NMFS
                                                                 revised its findings to include the 3-year
  Retrospective Patterns in Data
                                                                 lagged average and notified the New
  Generally, stock assessments rely on a model that uses         England Fishery Management Council in
  historical and current survey data (i.e., time series data) to October 2008 that the status determination
  estimate a stock’s population. These models seek to            for pollock stock has been changed to
  predict what the stock population will be under certain        “approaching an overfished condition and
  levels of mortality due to fishing. One way to examine the
  predictive validity of these models is to conduct
                                                                 overfishing is occurring.”
 retrospective analyses that investigate how accurate a
 particular model is using historical data to “predict”             Subsequently, in January 2009, NMFS
 historical trends. By comparing the prediction to the actual       notified the council that based on the 2008
 historical data, scientists can see if there is bias in the data   fall survey index, the 3-year centered
 they are using to make predictions and management
 measures. Retrospective pattern bias results when the
                                                                    average for pollock is below the biomass
 model produces a consistent over- or underestimation               threshold and, therefore, that the species is
 based on a comparison to the historical data. For example,         overfished. In addition, overfishing is
 a biased retrospective pattern occurs when a stock                 occurring for this species. A letter
 assessment model estimates a higher stock biomass and a            highlighting this finding was sent to the
 lower fishing mortality than what actually happened
 according to the historical data. Attachment D provides a
                                                                    New England Fishery Management
 demonstration of retrospective pattern analysis.                   Council on February 6, 2009. The Council
                                                                    must develop a rebuilding program for this
 These biases can be due to either bias in the data that goes       species within 1 year of notice of
 into the model (e.g., unrecorded landings) or incorrectly          overfished status. The Council intends to
 specifying the variables for a model (e.g., assuming a
 constant natural mortality rate across ages).
                                                                    include a rebuilding program for pollock
                                                                    in Amendment 16 to the NE Multispecies
 The consequences of failing to correct a predictive model          FMP, which is currently being developed
 that has these biases could be to consistently overestimate        by the Council for implementation in May
 the stock population and/or underestimate fishing                  2010.
 mortality, and thus continually decrease stock size rather
 than allowing it to rebuild.
                                                          Based on our work, the error related to
  Source: National Research Council, 1998. Improving Fish pollock does not appear to stem from bias
  Stock Assessments, National Academy Press, Washington,  or lack of best science on the part of
  DC.
                                                          NOAA, but from the rush to conduct 19
                                                          benchmark stock assessments at the same
time. However, this mistake had a much more harmful impact by providing the groundfish
industry with an example where the industry thought NMFS was leaning toward conservation
over allowing maximum optimal yield. This reinforces the mistrust the industry has for NMFS—
with industry suggesting that NMFS “cherry picks” the data to enforce conservation measures.




                                                             24 

Specific Allegations and OIG Findings                                                               February 26, 2009


We found no evidence to support this contention on the part of NMFS, but note that it is an area
of serious concern for the industry.

2) The 2008 joint assessment of Georges Bank cod by researchers from Canada and the U.S.
estimated higher biomass levels than did NMFS’ 2008 GARM III assessment of the same stock.

This allegation involved two assessments of the Georges Bank cod – one from a joint
U.S./Canada group—the Transboundary Resources Assessment Committee (TRAC), 26 which
assessed the eastern portion of the stock, and one from the GARM III, which assessed the entire
Georges Bank cod stock. The U.S./Canada assessment found, proportionally, a much higher
biomass than the GARM III assessment. The fact that the GARM III assessment estimated a
smaller stock would mean that fishermen in the U.S. could catch proportionally fewer fish than
Canadian fishermen.

When TRAC was initially formed in 1998 the goal was to ensure consistency in methodology
and data used to assess the U.S. and Canada stocks that share Georges Bank and Gulf of Maine,
particularly for cod, haddock, and yellowtail flounder. Therefore, since its inception, TRAC had
assessed both the eastern portion of Georges Bank cod and haddock stocks (both of which are
fished by Canada as well as the U.S.) and the entire Georges Bank cod and haddock stocks.
When the GARM process was initiated, the entire Georges Bank cod and haddock stock
assessments fell under its purview rather than TRAC. The TRAC assessment is still conducted on
the eastern portion of the stock (i.e., the portion shared between the U.S. and Canada) to allocate
proportions of stock to each country, but TRAC could not assess the entire stock under
requirements for the GARM III assessment. This opened the door for potential inconsistencies
between the two groups tasked with assessing portions of the same stock.

The 2008 TRAC assessment was Canada’s update of a 2002 benchmark assessment of the
eastern portion of Georges Bank cod. The 2008 GARM was a benchmark assessment of the
entire Georges Bank stock, led by NMFS researchers. We learned that both assessments are
based on the same data but they used different predictive models, which resulted in the difference
in estimates that form the basis of this allegation. Specifically, in 2002, the TRAC benchmark
assessment chose a model that differed from previously used models to correct for a newly
identified retrospective pattern, or bias, in the data. Using input from a peer review panel, TRAC
chose a particular model formulation that NMFS scientists did not agree with based on their own
simulation.

At the 2008 GARM III benchmark assessment, a NMFS researcher presented three models for
examination to address the retrospective patterns in data:

     1. Base model (which had been used in prior assessments),
     2. Split model (splitting the time series),


26
  TRAC is the scientific arm of the Transboundary Management Guidance Committee, a government—industry committee
comprised of representatives from Canada and the United States. TRAC reviews stock assessments and projections necessary to
support management activities for shared resources across the U.S.-Canada boundary in the Gulf of Maine-Georges Bank region.




                                                             25 

Specific Allegations and OIG Findings	                                                                  February 26, 2009


       3.	 TRAC model (primarily as a comparison, as it was not deemed appropriate by Science
           Center researchers).

The GARM panel chose to use the split model because it demonstrated less bias in retrospective
analysis. 27 Again, NMFS scientists were not satisfied with how the TRAC model performed—it
was presented at the GARM III meeting only as an indication of how the chosen assessment
model would differ from that of the TRAC. Even TRAC scientists reported that they were not
satisfied with how the model had performed in the most recent update assessment and called for a
new benchmark assessment, which will begin early in 2009. This assessment will address the
question of how to correct for retrospective patterns in data, including model selection.
According to TRAC researchers, the split model the GARM III used is a “prime candidate” for
the upcoming TRAC benchmark. Even if this model is not chosen, it is worth noting that the
several international researchers with whom we spoke did not think that NMFS’ choice of
models was either irrational or unsupported by the data.

The U.S./Canada TRAC and GARM III assessments were conducted at approximately the same
time, yet ended up with vastly different results. One can easily understand why this is of concern
to the industry—it seems as though the joint TRAC assessment “found more fish” than the U.S.
GARM III assessment—again appearing to support the allegation that NMFS “cherry picks” data
to support conservation. Yet upon careful consideration of this allegation and discussion with
scientists both internal and external to NOAA, including from Canada, we believe that NMFS
has considered other competing models, adequately articulated plausible distinctions, used
intelligible standards, and made readings of the data that were reasonable. We do not believe that
NMFS is basing its determination on anything but what it has determined to be the best available
science. The benchmark GARM III assessment used a different predictive model than the joint
U.S./Canada TRAC assessment (whose benchmark was 6 years old at this point). The new
GARM III benchmark led to different estimates than the old TRAC benchmark assessment,
which is due for benchmarking again early next year.

We do want to point out that when the stocks were being jointly assessed by TRAC alone (which
did include U.S. scientists and peer reviewers), there was less risk of using discrepant models and
producing discrepant results. Moving the entire Georges Bank cod assessment into the GARM III
and assessing it as a whole instead of as a separate benchmarking for the eastern portion opened
the door for possible inconsistencies – which will continue to erode the industry’s confidence in
the science.

3) “The GARM [made] progress look worse by splitting the trawl survey time series” and
“somewhat arbitrary decisions were made … looking at all NMFS data prior to 1994 through
one lens, and all data after 1994 through a different lens in order to make the outcomes of the
stock assessment models arrive at conclusions that were expected by scientists in their previous
biomass estimates. 28



27
     Northeast Fisheries Science Center, 2008. Assessment of 19 Northeast Groundfish Stocks through 2007, pp. 2-11.
28
     September 10, 2008, correspondence from Senate committee staffers detailing allegations.




                                                                26 

Specific Allegations and OIG Findings	                                                                     February 26, 2009


The basis for the allegation is the accusation that splitting the time series resulted in
unnecessarily low catch limits for fishermen. We earlier described this particular allegation as it
relates to the lack of clear communication and understanding between the Science Center and the
Fishery Management Council and groundfish industry (see pages 9-13). Here we discuss in
greater detail what we learned about this allegation.

The GARM III assessment report notes that “almost all the assessments of the GARM III stocks
considered at the current review exhibited a pattern with an over-estimation of SSB [spawning
stock biomass] and an under-estimation of fishing mortality (F) in the last, current, year of the
analysis. . . Of the 14 GARM III stocks that were assessed using an age-based assessment model,
seven of these had retrospective patterns severe enough that an adjustment was deemed
necessary.” 29 This means that, upon examining historical data using the current predictive
models, the models have in the past overestimated and can be expected to continue to
overestimate the stock population and underestimate the fishing mortality rate. Not correcting
these assessments at all would ultimately lead to erroneously high catch limits and a decrease in
stock size. The GARM III panels used two types of adjustments, or corrections, for the
retrospective pattern problem. The one most relevant to our inquiry is splitting the time series,
which was used in five of these stock assessments. 30

We learned that when estimating population sizes from survey and catch data, it is important to
understand the relationship between the survey observations and estimated population sizes. This
relationship, called catchability, is typically assumed to be linear and unchanging over time. At
some point, the assumption of constant catchability may no longer be valid because of changes in
the fishery, biology, or data collection, for example,

          1.	 changes in accuracy of reported landings could appear to increase the catchability of
              fish within the surveys;
          2.	 changes in the natural mortality rate of the fish that are not accounted for in the model
              could appear to increase the catchability of fish within the surveys; and
          3.	 management measures or environmental changes could change the distribution of fish
              causing a change in the catchability of fish within the surveys.

The time series split for the five stocks occurred around the years 1994 or 1995, as a result of
statistical analyses showing “something changed” in the data during this time frame, and it
corresponds with two important changes in the fishing industry:

          1.	 NMFS changed the way it collected data in the United States. Prior to 1994, vessels
              self-reported landings data; after 1994, this data came from reports filed by vessel trip
              observers and fish dealers in an effort to improve data validity.



29
   Northeast Fisheries Science Center, 2008. Assessment of 19 Northeast Groundfish Stocks through 2007, pp. 2-11.
30
   Based on interviews with participants in GARM III, we learned that a “Rho adjustment” was used in two other stock
assessments because the split in time series was ineffective at controlling the retrospective pattern bias. The GARM report
expresses a clear preference for the split in time series over the Rho adjustment because the latter complicates the calculations of
stock projections.




                                                                 27 

Specific Allegations and OIG Findings	                                                                 February 26, 2009


         2.	 NMFS made significant management changes to the fishery in 1994. Amendment 5,
             for example, put a cap on groundfishery participation and developed measures to
             reduce fishing effort for the first time.

 Both of these factors could have impacted estimates of landings, and both could have affected
 the stock biomass, which could have differentially affected survey estimates before and after the
 change to the fishery.

Science Center scientists admit they do not know exactly why the retrospective patterns are
appearing, but because they are appearing and because they indicate a bias in the resulting
projections, scientists want to inform managers of the expected effects of the bias. One way
scientists do this is by splitting the time series. This conveys an explicit, public recognition that
since 1994 there is a problem when historical data is compared to projections from the models.
NOAA researchers think that the change could have resulted from (1) a change in natural
mortality rate; (2) unrecorded landings; (3) unobserved discards (fish caught in nets, for
example, that are not the intended catch); and/or (4) mobility of the species. Though the cause
has not been determined, scientists at the Science Center believe that splitting the time series is
one way to inform managers of the change. Because scientists cannot determine a specific cause
for the change, however, and the variable for “catchability” is the one affected by this split in
time series, several industry representatives told us that this contributes to their lack of
confidence in the science, generally.

In October 2008, the International Council on Exploration of the Seas evaluated the effect of
splitting the survey time series even if the true source of the change in the stock was not
catchability, the variable that is assumed to change in this model, but rather a change in reported
catch or natural mortality. The council found that splitting survey series produced better
management advice than not splitting it. This finding demonstrates that splitting the time series is
both reasonable and desirable in the absence of any further scientific evidence for explaining the
cause of the problem. 31

During interviews, we heard from several industry and Fishery Management Council members
that the Science Center is not looking into the retrospective pattern problem. To the contrary, we
found that the Science Center has spent considerable time researching retrospective patterns and
alternative ways to correct for them. Science Center researchers report that they have studied the
topic at some length in a working group for the past two years. 32 They also note participating in
the ICES Working Group on Methods of Fish Stock Assessments, which has been examining the
problem of retrospective patterns since 1991. 33 And contrary to allegations we heard, the
retrospective pattern is not restricted to models used in the Northeastern U.S.—it is a problem
seen all over the world, hence the international working group. 34


31
   International Council on Exploration of the Seas, 2008. Report of the Working Group on Methods of Fish Stock Assessments,
p. 1.

32
   See Working Paper 4.1: Legault C et al. 2008. Report of the Retrospective Working Group (referenced in Northeast Fisheries

Science Center, 2008. Appendix to the Report of the 3rd Groundfish Assessment Review Meeting (GARM III): p. 929). 

33
   Ibid. 

34
   ICES, 2008. Report of the Working Group on Methods of Fish Stock Assessments. 





                                                              28 

Specific Allegations and OIG Findings                                            February 26, 2009


An international researcher told us that the U.S. more carefully and methodologically examines
splitting the time series before actually making the split than do other countries. There are other
models used throughout the world to correct for this pattern, but according to the international
researchers with whom we spoke, there is no known “best” model, and circumstances of the
particular fishery often inform model selection. In the GARM III assessment, other models were
considered to correct the biased retrospective pattern without splitting the time series. However,
the peer-reviewed GARM assessments chose the split option for the stocks for which it corrected
the retrospective pattern.

At the root of this allegation is a very technical statistical problem concerning retrospective bias
that as of yet has no statistical solution. Though the exact causes of this bias in the data—the
retrospective pattern—remain unknown, NMFS is actively working toward finding a solution to
the problem. In the interim splitting the time series was the best alternative. We found no
evidence that NMFS is failing to use the best scientific data available. We believe the underlying
problem here, again, is the industry’s lack of confidence in NMFS’ motives. These topics—
retrospective patterns, time series splits, and the statistical models under discussion—are highly
complex. As more is learned, more complex models can be built that better explain the
conditions at work and better predict their impact on stock levels. As the models become more
complex, they become even more difficult for the layperson to understand. The burden will
continue to fall on NOAA to improve its ability to communicate these matters to the Fishery
Management Council and the industry.

4) The failure to rebuild yellowtail flounder is not the result of fishing mortality but is due to
global warming and other environmental factors. Warming waters are prompting the southern
stock of yellowtail flounder to move north.

Yellowtail flounder in this region has been struggling for many years and shows little or no signs
of rebuilding, especially in the southernmost stock. Behind this allegation is the hypothesis that
biomass targets should not be set according to historical expectations, but should be lowered
because of climate change. Lower targets would be easier to reach and might allow the industry
to fish more.

We investigated two aspects of this allegation. First, was warming coastal waters incorporated
into GARM III? And second, how do NOAA scientists investigate the impact of ecosystem
changes on stock assessments?

Was the warming of coastal waters incorporated into the GARM III assessment of the yellowtail
flounder stocks?

Several members of the groundfish industry and some Fishery Management Council members
told us they believe the yellowtail flounder now live in deeper waters than previously. They
suspect the fish have moved to deeper waters to escape warming waters and to follow their food
source, which is also migrating because of warming water. According to NOAA researchers,
however, no data exists to support these contentions. NOAA scientists acknowledge and agree
that the southern stock of yellowtail flounder is in very poor condition, but science does not




                                                 29 

Specific Allegations and OIG Findings                                                                      February 26, 2009


support the hypothesis that this is due to climate change as evidenced by water temperature
change or northern migration of the stocks.

We found that NOAA researchers have investigated migration patterns of yellowtail flounder
stocks and have not found evidence of their moving northward. 35 We also heard from several
researchers that yellowtail flounder is not a coastal species, but lives offshore, where waters
show a warming trend in the summer and a cooling trend in the winter.36 Researchers believe the
winter’s cold water trends improve the condition of the stock and may have led to recent,
noticeable improvements. 37 Where the stock has been suffering most, in the Southern New
England/Mid-Atlantic, NOAA scientists report that water temperature is no different than in
Georges Bank, where the stock has been doing better. 38 NOAA researchers have investigated
possible effects of changing water temperature, but have seen no links to changes in the stock
productivity. Therefore, this variable has not been incorporated into the models. 39 These issues
were discussed and documented at the recent GARM III. 40

See pages 19-21 for additional discussion of the second aspect of this allegation related to how
NOAA scientists investigate the impact of ecosystem changes on stock assessments.

5) NMFS consistently sets conservative catch limits, ignoring the MSA requirement to obtain
optimum yield.

This allegation and the next involve a recent success story and the associated tension that even
success brings in this environment of harsh criticism. Haddock is one of the few stocks in the
northeastern groundfishery that has been rebuilt ahead of schedule. The problem is that haddock
live and are caught with cod, a stock that is still in a severely declined state. Theoretically,
haddock could be caught at much higher levels, but because cod is a very common bycatch when
fishing for haddock, as much as 90 percent of the available catch of haddock is allegedly left in
the ocean. This allegation speaks to the frustration of U.S. fisherman leaving up to 90 percent of
the total allowable catch of rebuilt haddock stocks in the ocean in 2008. The question we
investigated is: if haddock is already rebuilt, why it must remain part of the multispecies
complex?


35
   See Working Papers C5, C6, C7 and C8 in Northeast Fisheries Science Center. 2008. Appendix to the Report of the 3rd
Groundfish Assessment Review Meeting (GARM III), pp. 853-855.
36
   Friedland, K.D. and J.A. Hare, 2007. Long-term trends and regime shifts in sea surface temperature on the continental shelf of
the northeast United States. Continental Shelf Research. 27: 2313-2328. Specifically, see figure 12.
37
   See Sissenwine, M.P. 1974. Variability in recruitment and equilibrium catch of the Southern New England yellowtail flounder
fishery. J. Cons. Int. Explor. Mer. 36:15–26. However, a more recent study has cast some doubt on this relatively simplistic
relationship. (Sullivan M.C., R.K. Cowen, and B.P. Steves. 2005. Evidence for atmosphere-ocean forcing of yellowtail flounder
[Limanda ferruginea] recruitment in the Middle Atlantic Bight. Fisheries Oceanography. 14:386-399.) According to NMFS
researchers, this is one of the major difficulties when trying to include environmental variables, simple relationships often do not
stand the test of time because the fish are living in a highly complex environment with multiple interacting factors.
38
   See Friedland, K.D. and J.A. Hare, 2007. Long-term trends and regime shifts in sea surface temperature on the continental
shelf of the northeast United States. Specifically, see figures 9 and 10.
39
   See Sullivan M.C., R.K. Cowen, and B.P. Steves, 2005. Evidence for atmosphere-ocean forcing of yellowtail flounder
(Limanda ferruginea) recruitment in the Middle Atlantic Bight. Fisheries Oceanography. 14:386-399. Also see notes from
correspondence from NEFSC.
40
   See reference #34.




                                                                 30 

Specific Allegations and OIG Findings                                          February 26, 2009


The answer we heard to this question—both internal and external to NOAA—was nearly
unanimous: since the 19 stocks live together and are caught together on the bottom of the ocean,
they must be managed together in a multispecies complex. As such, it appears that higher
harvests of haddock must be forgone to assist the rebuilding of all stocks in the multispecies
plan.

In the 2008 GARM III stock assessments, haddock was determined as not overfished, with no
overfishing occurring. This is one of the few rebuilding success stories in the northeast since
aggressive regulations began in 1994. Haddock lives and is caught on the ocean bottom together
with cod and yellowtail flounder—both struggling species within the multispecies complex. The
Magnuson-Stevens Act requires all overfished stocks to be rebuilt in 10 years, so even if a stock
is doing well, the fishery is closed if the bycatch limit of a struggling species is reached.
Traditional groundfish trawl gear catches weaker stocks as bycatch, such as cod, and the haddock
fishery closes once the small limit on cod (or flounder) bycatch is reached.

Given the abundance of haddock, NMFS and the industry are working to develop, test, and
improve gear to target this population, yet exclude the more vulnerable species from the trawl
net. One example is the Ruhle trawl, a type of separator trawl being tested in certain areas to
determine the extent to which overfished stocks such as cod and flounder escape out the bottom.

The Canadians also catch haddock, and allegedly catch almost their entire haddock quota, as
negotiated with the United States. The Canadians allow a smaller mesh size in their trawl nets,
use separator gear, and only catch haddock as bycatch, not as part of a fishery management plan.
Canada’s national fisheries law does not require rebuilding in 10 years, as does the Magnuson-
Stevens Act, so we heard that Canadian managers have more flexibility in setting catch limits.

6) The multispecies fishery management plan unduly restricts fishing of abundant groundfish
stocks.

This allegation follows directly from the previous one. With some stocks rebuilding quicker than
other stocks, we investigated whether rebuilding 19 stocks in one fishery management plan is
effective. Theoretically, stocks with higher biomass levels could be fished at a much higher rate
than stocks with low biomass levels. We investigated the question: why can’t individual
groundfish species (or stocks) have their own management plan?

Since 1996, the Magnuson-Stevens Act has required that each stock defined as overfished be
rebuilt in 10 years. Many people we interviewed stated that this congressionally mandated time
period was unreasonable, not based on science, and unattainable in many cases. This 10-year
period was cited most often as the problem in rebuilding stocks of concern, not the multispecies
fisheries management plan or the science used to inform management decisions.

Many in the industry and on the Fishery Management Council noted that it is not realistic to
build every stock to sustainable biomass levels simultaneously. Likewise, several researchers
who participated in GARM III acknowledged that not all species could be maintained at
historically high biomass levels, and the new assessments have lowered target biomass levels for
several species. New data, which would reflect the new best available science, substantiates this.



                                                31 

Specific Allegations and OIG Findings                                                    February 26, 2009


The question was often raised as to how much NMFS knows about stocks’ competition for space
and resources on the ocean bottom. Researchers do single species stock assessments and are
slowly moving toward more ecosystem-based assessments. Some researchers acknowledge that
ecosystem carrying capacity—the capacity of an ecosystem to support healthy organisms while
maintaining its productivity, adaptability, and capability for renewal—is not taken into account
in most stock assessments, mostly due to a lack of data on these interactions. So while we heard
from fisherman that as cod has declined over the past few decades, dogfish and skates have filled
that ecological niche, this is an intuitive effect not yet verified by research.

The GARM III assessment did provide an “Ecosystem Considerations” section that attempted to
assess the ecosystem carrying capacity within the context of the 19 stock assessments. This
assessment concluded that the GARM III biomass targets were adequate.

Additionally, we heard from a broad range of stakeholders that if separate management plans
were drafted for certain species, any amendment to one plan would necessitate amendments to
every other plan pulled out of the multispecies plan, since the species must be managed together.
This idea was described as potentially very inefficient and time-consuming.

7) NMFS sets the natural mortality rate at 0.2 for all species and this is not specific enough. If a
different natural mortality rate was used, a greater percentage of fish mortality might be
attributed to natural causes and less to commercial or recreational fishing, and fishermen could
catch more fish.

Our review found that NMFS did not set the natural mortality rate at 0.2 for all of the species in
the groundfish multispecies complex, but it did so for the majority of them. Specifically, the
Science Center used different natural mortality rates in only 2 of the 19 species—Gulf of Maine-
Georges Bank Acadian redfish (0.05) and Atlantic halibut (0.15).

The natural mortality rate is the rate at which fish are removed from the population for reasons
other than fishing activity (e.g., predation, disease, and age). In general, the natural mortality rate
is assumed to be the difference between total mortality and fishing mortality. When the fishing
mortality rate is low (because of management measures or lower demand for the stock), a greater
portion of mortality is due to natural causes, thus more weight falls on the natural morality rate
estimate. This rate can therefore play a key role in fish stock assessments, but many interviewees
believe its influence on fish population dynamics is one of the most difficult to determine. As a
result, the Science Center defers to the commonly used (by the fisheries science community)
natural mortality rate of 0.2 for most species.

Many interviewees agreed that the natural mortality rate can have a noticeable impact on stock
assessments. Industry believes this impact is oftentimes negative. For instance, if the natural
mortality rate is underestimated then the fishing mortality rate will be overestimated and the
fishing mortality rate for future catches will be set lower than it should be. A 1998 NRC review
of northeast stock assessments recommended that “A variety of assessment models should be
used, and independent estimates of mortality (M) should be considered.” 41 To date, the Science
41
     National Academy of Science, 1998. Review of Northeast Fishery Stock Assessments.




                                                               32 

Specific Allegations and OIG Findings                                                              February 26, 2009


Center has done little to implement this recommendation. Therefore, the Fishery Management
Council and industry representatives want the Science Center to place a priority on determining
more accurate natural mortality rates for the remaining 17 species in the northeast multispecies
complex. Science Center officials acknowledged to us that they need to do more work in this
area but do not know how much the center can or will do based on current resources.

8) NMFS did not provide evidence to support cutting the fishery during the summer and fall in
the Mid-Atlantic; estimates of turtle takes were left out of previous assessments; and
improvements based on rotational management were not considered. The industry also alleges it
should be allowed to harvest more scallops than permitted by the actions recommended in the
scallop biological opinion.

This allegation is intrinsically related to the scallop biological opinion. We will comment on this
allegation to the point at which it may relate to the pending litigation.

A law firm representing the sea scallop industry submitted a request dated March 24, 2008, to the
NOAA FOIA officer for all materials related to the scallop biological opinion. NMFS prepared a
“FOIA Request and Action Record,” dated March 25, 2008. The receipt of the request
established the start of the 20 work-day limit for delivery of responsive documents. The
requester agreed to pay all reasonable fees and costs necessary to fulfill the request provided the
fees did not exceed $300.

As shown in table 3, below, NMFS did not comply with its own procedures. 42 NOAA did not
meet the deadline to respond to the requestor, nor did it immediately contact the requestor to
negotiate an extension to respond, as required. Several NOAA researchers commented that this
particular FOIA request had been confusing and even “chaotic.” The requestor was given at first
a seemingly high cost of $7,943 for the materials. In a later letter, this cost was revised to $1,680.
We discovered that at the time the revised cost estimate was submitted, the FOIA officer
contacted the requestor to informally convey that most documents would be held as privileged
(predecisional), thus the requestor would not receive many (if any) documents in return for the
payment. Upon hearing this, the requestor did not make payment and filed suit against the
Department citing “arbitrary and capricious” decisions contained in the biological opinion. 43

We discussed NMFS’ FOIA response with the FOIA coordinator, who said that he endeavors to
comply with the handbook and does the best he can. Although several NOAA officials who
respond to FOIA requests acknowledged that deadlines were missed, it is apparent to us that the
responsible officials were not held accountable for following FOIA procedures for this particular
request. In our opinion, NMFS’ failure to actively manage the FOIA process in this instance
resulted in wasted effort and expense in identifying, duplicating hard copy and electronic
records, and providing administrative review of those records. We suspect there may be further
problems with the FOIA process at NOAA, but those issues are beyond the scope of this review.

42
   We used NMFS’ FOIA policy directive and handbook as the criteria in evaluating NMFS’ response. The documents describe

the procedures and timeline for NMFS’ response to FOIA requests. The handbook requires FOIA officers to take specific 

proactive steps to ensure that FOIA responsibilities are met in a timely manner. 

43
   Fisheries Survival Fund v. Gutierrez (1:08cv01679, D.D.C). 





                                                            33 

Specific Allegations and OIG Findings                                                                            February 26, 2009




Interactions like this will only further erode the industry’s confidence in NOAA. For each
interaction with the industry, NOAA must keep transparency and openness in mind. In this
particular case, the FOIA deadline was exceeded and it appears the fees associated with the
request were overestimated. Though we have seen no evidence of a deliberate attempt to conceal
information, industry members view such exchanges with NOAA as indications that NOAA is
not being transparent and open—characteristics highlighted by the National Research Council as
needing improvement in its 2004 report. 44

               Table 4. NMFS Response to a FOIA Request dated March 24, 2008
                                                            Date of
               NMFS action required per the
                                                            NMFS’            NMFS Action
               FOIA handbook
                                                            Action
               Prepare CD-244: FOIA Request and             March 25, 2008   The CD-244 was completed. This established
               Action Record                                                 April 22, 2008, as the 20 working day
                                                                             deadline to provide responsive documents.
               Immediately, contact requester               June 30, 2008    Referenced in the June 30, 2008, letter below,
               regarding scope, fee issues or responsive                     a May 14, 2008 telephone conversation
               documents                                                     between FOIA coordinator and the requester,
                                                                             modifying the request to exclude anything
                                                                             that would be included in the administrative
                                                                             record for the 2008 BiOp for Atlantic Sea
                                                                             Scallops.
               Immediately provide requester an             June 30, 2008    FOIA coordinator letter to requester
               opportunity to modify the request in                          modifying request to exclude anything that
               order to meet the 20 working-day time                         would be in the administrative record.
               limit
               ASAP and no later than 20 working            June 30, 2008    Same letter as above and requests payment of
               days after the receipt of a request inform                    $7,943.
               requester of the estimated fee in writing
               and request advance payment
               Immediately respond to requester             July 15, 2008    Letter from FOIA coordinator to the
               regarding scope, fee issues or responsive                     requester reiterating the scope of the
               documents                                                     information requested and reducing the cost
                                                                             estimate of the search to be conducted to
                                                                             $1,680.
               Immediately respond to requester             July 21, 2008    Letter from requester referencing a
               regarding scope, fee issues or responsive                     “conversation last week regarding the
               documents                                                     National Marine Fisheries Service’s ‘NMFS’
                                                                             apparent preliminary determination that
                                                                             perhaps the overwhelming majority of the
                                                                             documents … are privileged.” FOIA
                                                                             coordinator said he called the requester and
                                                                             conveyed the message that documents may
                                                                             be withheld. The conversation occurred
                                                                             immediately followed the revised fee letter
                                                                             [assumed to be 7/16/08].




9) The 2008 FOIA request for documents related to the scallop biological opinion was poorly
handled.

We fully discuss our findings regarding this allegation above, but reiterate that the poor handling
of this FOIA request further eroded the industry’s confidence in NOAA. At each interaction with
the industry, NOAA must keep in mind its goals for transparency and openness. In this particular

44
 National Research Council, 2004. Improving the Use of the "Best Scientific Information Available" Standard in Fisheries
Management.




                                                                      34 

Specific Allegations and OIG Findings                                          February 26, 2009


case, NOAA did not meet the FOIA deadline and overestimated the fees associated with the
request. Although we did not find evidence to suggest a deliberate attempt to delay the release of
information, the handling of the request suggests to industry members that NOAA is not being
transparent and open—characteristics noted as needing NOAA’s attention by the National
Research Council in 2004.




                                                35 

Specific Allegations and OIG Findings	                                                             February 26, 2009


Attachment B

Previous External Reviews Dealing with NMFS’ Use of Science (1998–2005)

Since 1998, the National Research Council of the National Academy of Science, GAO, and the
National Academy of Public Administration (NAPA) have examined NMFS’ use of best
available science nationally, and at NMFS’ Northeast Fisheries Science Center.

         •	 The National Research Council’s 1998 Review of Northeast Fishery Stock Assessments,
              T




            required by Congress in the 1996 Magnuson-Stevens Act reauthorization, found that
            the stock assessment process in the Northeast region, despite the need for
            improvements, “appears to provide a valid scientific context for evaluating the status of
            fish populations and the effects of fishery management.” The National Research
            Council also found that the Northeast region’s stock assessment process is analogous to
            processes and standards used in jurisdictions elsewhere in the world. The National
            Research Council recommended improvements in NMFS’ collection, analysis, and
            modeling of stock assessment data, although it noted that the strict regulations in
            question “might have been avoided if fishing mortality in the New England
            groundfisheries had been effectively controlled from the mid-1980s (p. 2).”

         •	 In a 2002 report requested by Congress and NMFS, the National Academy of Public
            Administration stated in a chapter devoted to NMFS’ use of science that NMFS should
            “maintain and advance its tradition of excellence in fisheries science.” A 2005 follow-
            up report stated that with respect to the use of science, overall progress is being made
            but the size and nature of NMFS’ scientific mission continues to present significant
            challenges. 45

         •	 A 2002 report by the National Research Council studied the scientific foundation, data,
            models, and processes used by NMFS to meet it regulatory requirements and respond
            to litigation. In Science and Its Role in the National Marine Fisheries Service, NRC
            referenced several instances in which solid scientific advice was ignored by the
            councils, and subsequently by NMFS in approving the council action. NRC
            recommended that NOAA create standard review procedures and guidelines to increase
            the efficient use of the best available scientific information for management
            considerations, and review regional governance systems.

         •	 A 2004 GAO report, prompted by concerns about the accuracy of NMFS stock
            assessments on the west coast, 46 found that NMFS lacked a standard approach for
            ensuring the reliability of non-NMFS data used in stock assessments. GAO also found
            that NMFS had taken steps to implement some of the recommendations contained in a
            2001 internal NMFS stock assessment improvement plan, but because of staffing and
            funding limitations, NMFS had not yet implemented many of the recommendations

45
   See National Academy of Public Administration, 2005. Improving Fisheries Management: Actions Taken in Response to the 

Academy’s 2002 Report. 

46
   See GAO-04-606, Pacific Groundfish: Continued Efforts Needed to Improve Reliability of Stock Assessment. 





                                                            36 

Specific Allegations and OIG Findings	                                         February 26, 2009


           aimed at obtaining more types of data and improving data quality. GAO recommended
           standardizing the processes and continuing to work to improve data quality. As part of
           a comprehensive review of Magnuson-Stevens Act implementation, GAO also
           assessed the best available science issue in 2000. It found that NMFS appeared to be
           using the best available scientific information to determine the condition and
           abundance of fish and other marine species, but improvements to include more current
           and complete data could be made. See Fishery Management: Problems Remain With
           National Marine Fisheries Service's Implementation of the Magnuson-Stevens Act
           (RCED-00-69).

        •	 The National Research Council’s 2004 report, Improving the Use of the "Best Scientific
           Information Available" Standard in Fisheries Management, opined that Congress’s
           “best scientific information available” language “acknowledges the existence of
           scientific uncertainty, a feature of even the most robust biological population
           assessments, and dictates that prudent management be consistent with the scientific
           information that is available even though data gaps exist” (p.42). Its major
           recommendation was that NMFS should implement guidelines that more uniformly
           address issues of relevance, inclusiveness, objectivity, transparency, timeliness, and
           peer review to govern the production and use of scientific information in the
           preparation of fishery management plans and supporting documents. It noted as a
           positive development the Northeast Fisheries Science Center’s 20 years of experience
           using “a two-part system consisting of stock assessment development conducted by the
           Stock Assessment Workshop and external peer review conducted by the Stock
           Assessment Review Committee” (page 29).


1) National Academy of Science, 1998
Review of Northeast Fishery Stock Assessments
http://books.nap.edu/openbook.php?record_id=6067&page=1 (summary)

2) GAO RCED-00-69, 2000
Fishery Management: Problems Remain With National Marine Fisheries Service's
Implementation of the Magnuson-Stevens Act
http://www.gao.gov/archive/2000/rc00069.pdf

3) National Academy of Science, 2002
Science and Its Role in the National Marine Fisheries Service
http://www.nap.edu/openbook.php?isbn=0309084628

4) National Academy of Public Administration, 2002
Courts, Congress, and Constituencies: Managing Fisheries By Default
http://71.4.192.38/NAPA/NAPAPubs.nsf/17bc036fe939efd685256951004e37f4/a04705cd1a32a
13c85256c0200653434?OpenDocument

5) GAO-04-606, 2004
Pacific Groundfish: Continued Efforts Needed to Improve Reliability of Stock Assessments



                                                37 

Specific Allegations and OIG Findings                                        February 26, 2009


http://www.gao.gov/docsearch/locate?to=http%3A%2F%2Fwww.gao.gov%2Fnew.items%2Fd0
4606.pdf

6) National Academy of Science, 2004
Improving the Use of the "Best Scientific Information Available" Standard in Fisheries
Management
http://books.nap.edu/catalog.php?record_id=11045

7) National Academy of Public Administration, 2005 follow-up report
Improving Fisheries Management: Actions Taken in Response to the Academy’s 2002 Report
http://71.4.192.38/NAPA/NAPAPubs.nsf/5053746074da45db85256968006aa88f/5e571c8d54a2
5dbb85256fba007645b7?OpenDocument




                                               38 

Specific Allegations and OIG Findings                                                                                 February 26, 2009


Attachment C: GARM III Assessment of Stocks in Status-Defining Quadrants 47

                                          2007 Groundfish Stock Status

               8.0,-----=c;;-------------,
                       1/2 B MSY
               7.5
               7.0          overlishing                                          overtishing
               6.5          ovemshed                                            nol o~erllshed

               6.0
               5.5
               5.0
               4.5
                           NWnd
               4.0           o
               3.5
               3.0   SNE   w",
               2.5     0
                                               GMCod
               2.0    SNE YT CC YT     OP",     0

               1.5         ~"w<;:Ow"""         SWiOO                                                        F
               1.0 ~;1.~"t'~~I~------------------------!'~Y..,
                       o                      Of'\-                06.. ~..           no overtishing         GB ~""
               0.5   P""                      'OR........                             not overtished
               00 +-''-+~--e-=''";"_-~--~-~--~---J
                 000 0.25 0.50 0,75 100 1.25 1.50 175 200
                             no ovemshlng
                                 o~erllshed


      Figur~   2. St:llI", of 19 groondfiili "ocks in 2007 \\11h '<spt<:1 to F"w and B-."Y or m.u- proxi.-s b..>rd Olllht GAR.!I,t III r~yi~'




47
     Northeast Fisheries Science Center, 2008. Assessment of 19 Northeast Groundfish Stocks through 2007; Executive Summary.




                                                                         39 

Specific Allegations and OIG Findings                                                    February 26, 2009


Attachment D: Retrospective Pattern Bias

                                                                                                     #1
                       50


                       40
   SSB (thousand mt)




                                                                                                   #2
                       30


                       20                                                                                      #3


                       10                                                                                    #4 & #5


                        0
                        1970   1975   1980          1985            1990   1995   2000        2005

Source: E-mail communication with Science Center staff, dated 1/26/09.


This figure illustrates a retrospective pattern, or bias, in the data. The pattern is developed by
taking a particular year in the past (2001, in this case) and looking at how the stock biomass
would have been estimated given data that was gathered in subsequent years.

The graph shows that the spawning stock biomass (SSB, which is one of the primary measures of
the stock population) was first estimated at 45 thousand metric tons (kt) in 2001 (see #1). The
next year, the estimate for 2001 dropped almost in half to 24 kt (see #2), and then dropped by
more than half the following year to 11 kt (see #3). By 2004, the estimate for the 2001 SSB had
dropped to 10 kt and stayed at this value for 2005 (see #4 and #5). The implication is that the
original assessment in 2001 had vastly overestimated the population abundance and thus
managers would have set catch advice much too high relative to the advice that would have been
provided had the 2001 estimate from the 2005 assessment been used, by almost fivefold. This
high catch advice would then translate into a higher fishing mortality rate than desired and either
slow rebuilding or cause the population to decline. The assumption that the 2005 estimate of
2001 SSB is better than the 2001 estimate of 2001 SSB is based on the additional years of
information about the cohorts that occurred from 2002 to 2005.




                                                             40 

Specific Allegations and OIG Findings	                                        February 26, 2009


Attachment E

Scope and Methodology:

Objective 1 -
Focusing on specific complaints listed in the “Areas of Inquiry” document provided to OIG by
Senate staff, for each targeted species we reviewed the following:
   •	 Key laws and agency reports.
   •	 The relevant management plan and recent management measures, including amendments
       and frameworks.
   •	 Relevant meeting agendas and summaries from
           o	 the New England Fishery Management Council (NEFMC)
           o	 NEFMC advisory teams, science and statistical committee, and plan development
                teams.
   •	 GARM III assessment report and appendixes.
   •	 Certain recent stock assessment and fishery evaluation reports.
   •	 Peer reviews of these stock assessments.

We also reviewed external evaluations drafted since 1998 of NMFS’ use of science by the
National Academy of Public Administration, the National Research Council of the National
Academy of Science, and the Government Accountability Office. (See attachment B.)

We interviewed the following agency and industry representatives:
  •	 Officials from NMFS’ Northeast Regional Office; the Northeast Fisheries Science
       Center, which has lead responsibility for conducting stock assessments for the northeast;
       and the New England Fishery Management Council, which has responsibility for
       developing and implementing fishery management measures.
  •	 Government officials and fisheries experts from the Massachusetts, New Hampshire, and
       Maine departments of fish and wildlife, the Atlantic States Marine Fisheries Commission,
       environmental groups, and industry associations, as well as fishermen.
  •	 Certain researchers involved in assessments and peer reviews.
  •	 Officials and certain researchers not involved in the process, including international
       researchers.

We did not simulate NMFS' stock assessment models, review NMFS’ algorithms, or evaluate the
mathematical and statistical methodologies used in the models.

We traveled to the Northeast Regional Office in Gloucester, Massachusetts, and the Northeast
Fisheries Science Center in Woods Hole, Massachusetts; we attended the New England Fishery
Management Council meeting in Danvers, Massachusetts, from November 17-20, 2008. We
attended a field hearing in Portland, Maine, on October 14, 2008, and traveled to Maine again in
January 2009 to conduct additional interviews.

Objective 2 - To address concerns that NMFS has denied the fishing industry access to
underlying scientific data, we examined data access issues, including the transparency of NMFS’



                                               41 

Specific Allegations and OIG Findings	                                          February 26, 2009


procedures for responding to data requests, the timeliness of its responses, and the
appropriateness of costs it charges to process requests.

We reviewed the following:
  •	 Freedom of Information Act (5 USC 552)
  •	 FOIA exemptions
  •	 Electronic Freedom of Information Act Amendments of 1996
  •	 NOAA’s Guide for Submitting FOIA Requests
  •	 NOAA’s Guide for Submitting FOIA Appeals
  •	 Department Administrative Order 205-12, Public Information
  •	 Department Administrative Order 205-14, Processing Requests Under the Freedom of
      Information Act
  •	 NOAA Administrative Order 205-14, Processing Requests Under the Freedom of 

      Information Act 

  •	 Privacy Act of 1974 (and amendments)
  •	 Department of Commerce FOIA regulations that implement the FOIA statute, 15 CFR §§
      4.1~4.11

We spoke with individuals alleging problems with the NMFS data access procedures, and with
NOAA and NMFS FOIA officers in Silver Spring, Maryland, and in the Northeast Regional
Office in Gloucester, Massachusetts.

We conducted our review from October 2008 through February 2009.




                                                42 

